<html>
<title> - CONTINUING INDEPENDENT ASSESSMENT OF THE NATIONAL POLAR-ORBITING OPERATIONAL ENVIRONMENTAL SATELLITE SYSTEM</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                  CONTINUING INDEPENDENT ASSESSMENT OF
                THE NATIONAL POLAR-ORBITING OPERATIONAL
                     ENVIRONMENTAL SATELLITE SYSTEM

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON INVESTIGATIONS AND
                               OVERSIGHT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 17, 2009

                               __________

                           Serial No. 111-36

                               __________

     Printed for the use of the Committee on Science and Technology


       Available via the World Wide Web: http://science.house.gov

                                 ______










                  U.S. GOVERNMENT PRINTING OFFICE
50-173PDF                 WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001













                  COMMITTEE ON SCIENCE AND TECHNOLOGY


                   HON. BART GORDON, Tennessee, Chair
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
PARKER GRIFFITH, Alabama             MICHAEL T. MCCAUL, Texas
STEVEN R. ROTHMAN, New Jersey        MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                   BRIAN P. BILBRAY, California
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
BEN CHANDLER, Kentucky               PAUL C. BROUN, Georgia
RUSS CARNAHAN, Missouri              PETE OLSON, Texas
BARON P. HILL, Indiana
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
VACANCY
                                 ------                                

              Subcommittee on Investigations and Oversight

                HON. BRAD MILLER, North Carolina, Chair
STEVEN R. ROTHMAN, New Jersey        PAUL C. BROUN, Georgia
LINCOLN DAVIS, Tennessee             BRIAN P. BILBRAY, California
CHARLES A. WILSON, Ohio              VACANCY
KATHY DAHLKEMPER, Pennsylvania         
ALAN GRAYSON, Florida                    
BART GORDON, Tennessee               RALPH M. HALL, Texas
                DAN PEARSON Subcommittee Staff Director
            JAMES PAUL Democratic Professional Staff Member
            TOM HAMMOND Republican Professional Staff Member
                      JANE WISE Research Assistant













                            C O N T E N T S

                             June 17, 2009

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brad Miller, Chairman, Subcommittee 
  on Investigations and Oversight, Committee on Science and 
  Technology, U.S. House of Representatives......................    10
    Written Statement............................................    11

Statement by Representative Paul C. Broun, Ranking Minority 
  Member, Subcommittee on Investigations and Oversight, Committee 
  on Science and Technology, U.S. House of Representatives.......    12
    Written Statement............................................    13

                               Witnesses:

Mr. David A. Powner, Director, Information Technology Management 
  Issues, Government Accountability Office (GAO)
    Oral Statement...............................................    15
    Written Statement............................................    17
    Biography....................................................    22

Mr. A. Thomas Young, Chair, NPOESS Independent Review Team (IRT)
    Oral Statement...............................................    22
    Written Statement............................................    24
    Biography....................................................    25

Ms. Mary M. Glackin, Deputy Under Secretary for Oceans and 
  Atmosphere, National Oceanic and Atmospheric Administration 
  (NOAA), U.S. Department of Commerce
    Oral Statement...............................................    26
    Written Statement............................................    28
    Biography....................................................    33

Discussion
  Ensuring Interagency Cooperation...............................    34
  The Role of OSTP...............................................    35
  Selecting a Management Strategy................................    36
  Program Cost...................................................    37
  Coordinating Agencies and Technologies.........................    38
  The Keys to Avoiding Future Problems...........................    40
  Closing........................................................    40

             Appendix 1: Answers to Post-Hearing Questions

Mr. David A. Powner, Director, Information Technology Management 
  Issues, Government Accountability Office (GAO).................    44

Mr. A. Thomas Young, Chair, NPOESS Independent Review Team (IRT).    47

Ms. Mary M. Glackin, Deputy Under Secretary for Oceans and 
  Atmosphere, National Oceanic and Atmospheric Administration 
  (NOAA), U.S. Department of Commerce............................    51

             Appendix 2: Additional Material for the Record

Polar-orbiting Environmental Satellites: With Costs Increasing 
  and Data Continuity at Risk, Improvements Needed in Tri-agency 
  Decision Making, Report to Congressional Requesters, U.S. 
  Government Accountability Office, June 2009....................    56

NPOESS Independent Review Team, Final Report, June 1, 2009.......   108

 
   CONTINUING INDEPENDENT ASSESSMENT OF THE NATIONAL POLAR-ORBITING 
               OPERATIONAL ENVIRONMENTAL SATELLITE SYSTEM

                              ----------                              


                        WEDNESDAY, JUNE 17, 2009

                  House of Representatives,
      Subcommittee on Investigations and Oversight,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2:04 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brad 
Miller [Chairman of the Subcommittee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

              SUBCOMMITTEE ON INVESTIGATIONS AND OVERSIGHT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                  Continuing Independent Assessment of

                the National Polar-Orbiting Operational

                     Environmental Satellite System

                        wednesday, june 17, 2009
                          2:00 p.m.-4:00 p.m.
                   2318 rayburn house office building

Purpose

    The Subcommittee on Investigations and Oversight meets on June 17, 
2009, for further oversight of the National Polar-Orbiting Operational 
Environmental Satellite System (NPOESS). The Subcommittee will receive 
the newest report on the program produced by the Government 
Accountability Office (GAO) and the findings from the Independent 
Review Team (IRT) examining the program. NPOESS has been the subject of 
sustained oversight as the risk that critical weather data might be 
lost has grown. At this hearing, the Subcommittee will consider 
alternative steps to limit the continuing deterioration in NPOESS 
program management and maintain the present schedule of satellite 
launches.

Program Description

    In 1993, the decision was made to bring together the Defense 
Meteorological Satellite Program satellites operated by the Air Force 
and the Polar Operational Environmental Satellites run by NOAA, thereby 
creating the NPOESS program.\1\ These satellites were intended to meet 
needs for weather data by the military services as well as NOAA's 
National Weather Service. NPOESS also offered the opportunity for NOAA 
and NASA to assure continuity of the climate data that both agencies 
are collecting. The Committee's work has shown that the benefits 
expected from NPOESS have failed to materialize. Instead, the agencies 
find themselves at risk of losing the flow of global data on weather 
conditions and climate change that are critical to serving the needs of 
the United States.
---------------------------------------------------------------------------
    \1\ GAO in its report provides a more detailed description of the 
usefulness of satellites in polar orbits.
---------------------------------------------------------------------------
    The Committee has held five hearings on the NPOESS program since 
2003, documenting cost overruns and schedule delays. A recurring issue 
has been the ineffectiveness\2\ of the program's Executive Committee 
(EXCOM), which consisted of the heads of the three agencies involved:
---------------------------------------------------------------------------
    \2\ In 2005, frustrated by NOAA's inability to respond to the 
deteriorating conditions within the program, Representatives Gordon and 
Wu called for the removal of NOAA's Administrator and his deputy. Then-
President Bush declined to take that step.

---------------------------------------------------------------------------
        <bullet>  the Administrator of NOAA,

        <bullet>  the Under Secretary of Defense for Acquisition, 
        Technology and Logistics (who delegated responsibility for 
        EXCOM activities to the Secretary of the Air Force); and

        <bullet>  the Administrator of NASA.

    Below is a diagram of the NPOESS management structure (left column) 
established in response to the so-called Nunn-McCurdy 
recertification\3\ in 2005. A System Program Director (SPD) was placed 
in charge of the Integrated Program Office (IPO) handling the day-to-
day program oversight. A Program Executive Officer (PEO) became the 
direct liaison to the EXCOM. This was to simplify reporting information 
to the EXCOM and execution of resulting decisions.
---------------------------------------------------------------------------
    \3\ As set forth in the Memorandum of Agreement governing the 
NPOESS program, the Air Force is managing the acquisition of the 
satellites. It is therefore subject to Department of Defense 
regulations for major defense programs. When such programs exceed 
approved baseline costs by more than 25 percent, recertification is 
required by 10 U.S.C. 2433 et seq.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    With the reassignment of the first PEO, Air Force Brigadier General 
Susan Mashiko, the EXCOM sought a replacement and ultimately settled on 
her System Program Director, Dan Stockton. In assuming his new 
position, Mr. Stockton retired from the Air Force and became a NOAA 
employee. The new System Program Director, Ed Phillips, also 
transitioned from the Air Force to a NOAA civil service position. As a 
result, they also serve within the Department of Commerce management 
structure (right column), communicating through the National 
Environmental Satellite Data and Information Services (NESDIS) division 
of NOAA.
    According to the reports to be presented at this hearing, this 
management structure is still failing to provide the leadership needed 
for NPOESS program success. This leads to the obvious question: Is 
there hope of repairing the flaws in the organization? If not, what 
should replace it?

Witnesses

Mr. David Powner, Director, Information Technology Management Issues, 
Government Accountability Office (GAO)

    Mr. Powner is the head of the GAO team monitoring the NPOESS 
program since 2001. He will present the latest in the continuing series 
of reports commissioned by the Committee on this satellite program. He 
will also respond to changes that have occurred in the program's status 
since GAO completed work on its review.

Mr. Tom Young, Chair, NPOESS Independent Review Team (IRT)

    Mr. Young served as the president of the Martin Marietta 
Corporation until its merger with Lockheed Corporation; he then served 
as Executive Vice President of Lockheed Martin until retiring in 1995. 
Mr. Young also served as Director of NASA's Goddard Space Flight Center 
earlier in his career. In recent years, he has lent his expertise to 
numerous program reviews and mishap investigations in the space 
program. He testifies today as Chair of the Independent Review Team 
constituted by the NPOESS Executive Committee (EXCOM) to offer advice 
on recovering from the severe technical and managerial problems in the 
program.

Ms Mary Glackin, Deputy Administrator, National Oceanic and Atmospheric 
Administration (NOAA)

    The NPOESS program is fundamental to NOAA's weather missions, and 
was also expected to contribute to the agency's monitoring of climate 
and space weather phenomena. During the transition to the Obama 
Administration, Ms. Glackin has served as NOAA representative to the 
EXCOM, and has been coordinating with representatives of NASA and the 
Air Force to deal with the problems that continue to beset the program. 
Ms. Glackin has been asked to provide NOAA's responses to the reports 
prepared by the previous witnesses. She will also describe the progress 
of discussions now underway to plot a future course for the program.

Background

A. Helping NPOESS Succeed
    The NPOESS program exists to collect data needed by NOAA, DOD and 
NASA to forecast weather, help military units minimize weather impacts 
on operations, and understand the influence of Earth's climate. 
According to the IRT report, however, the ``customers'' have very 
different views on ``how much is enough.'' DOD is quite satisfied with 
the performance of those instruments currently flying and sees little 
need for significant investments in improvements. For NOAA and NASA, on 
the other hand, such improvements are needed to achieve their mission 
goals. The IRT states, ``These differences are straining interagency 
relationships and are impacting how people do their jobs, even down to 
the lowest levels of the IPO. The IRT believes that this program will 
not survive if this particular problem is not addressed immediately.'' 
[emphasis added] The IRT follows with the statement that this ``. . . 
can only be resolved at the White House level.''
    Whatever decision the White House makes on the question of what 
NPOESS will do bears heavily on one of the major recommendations the 
IRT offers as part of its ``Path Forward.'' The Team states that the 
program needs support from the space system experts at either NASA's 
Goddard Space Flight Center or the Air Force Space and Missile Command. 
The team believes that, given the fact that NPOESS is critical to 
NOAA's mission areas, NOAA should recast the program to work with 
Goddard much as it is doing with the Geostationary Operational 
Environmental Satellite upgrade (GOES-R). However, if the White House 
defines the NPOESS program to be more in line with the DOD view that 
NPOESS is little more than a replacement for the current polar-orbiting 
satellites, then either organization would be acceptable. Whatever the 
case, the present Integrated Program Office would continue in some 
fashion and would be expected to work closely with whichever 
organization is selected. The Committee's interest in NOAA and NASA 
activities argues for support of the IRT's preference for a NOAA-NASA 
partnership. Mr. Young also emphasizes that full control of the program 
resources must be vested in the revamped acquisition organization.
    The IRT also believes that the current contractors should be 
retained. In the Nunn-McCurdy restructuring, studies were begun to 
determine if the prime contract with Northrop Grumman should be changed 
or terminated. These studies criticized Northrop Grumman and the 
Raytheon Space and Airborne Systems team building the Visible/Infrared 
Imaging Radiometer Suite (VIIRS) for poor performance. The Independent 
Review Team received detailed presentations on the results from these 
studies, which concluded that Northrop Grumman, at least, had made 
progress in addressing its shortfalls. Therefore, the disruption caused 
by finding a replacement was not warranted. The IRT team also 
recommends retaining Northrop Grumman. However, the award fee plan for 
the contract should be changed to focus on mission success.
    The IRT also recommended that the government press forward with 
Raytheon to obtain the VIIRS instrument, although it could not 
determine how much longer it would take or how much it will ultimately 
cost. Replacement options should be limited to obtaining another unit 
of the existing Advanced Very High Resolution Radiometer (AVHRR) imager 
now in use should the VIIRS unit fail during its remaining test or 
integration processes.
    The IRT notes that the program is still operating with insufficient 
funds to achieve the outcomes it is pursuing. Correcting this will be 
another outgrowth of the White House decision process, in that more 
funds will have to be found or something will have to be dropped. The 
IRT estimates that accomplishing the current program plan will require 
an additional $1 billion, which matches GAO's view (see section C, 
below).

B. What About EXCOM?
    Previous hearings have examined the role and performance of the 
Executive Committee, which serves as the senior level of management for 
the NPOESS program. In the Committee's 2005 hearing, Mr. Gordon (then 
Ranking Member) had a sharp exchange with NOAA Administrator Conrad 
Lautenbacher about the flow of information to the EXCOM and the slow 
pace of EXCOM meetings even as the program was suffering severe budget 
problems. In a hearing before the Energy and Environment Subcommittee 
in 2007, GAO described the laborious process the EXCOM undertook to get 
concurrence on the set of documents needed to implement the management, 
technical and budgetary changes resulting from the Nunn-McCurdy 
recertification decisions in 2006. A year later, Mr. Powner testified 
that the updated Memorandum of Agreement and the new program baseline 
had still not been signed by all of the three principals.\4\ The 
repeated inability to make even basic decisions led the Committee to 
ask GAO to focus attention on the EXCOM.
---------------------------------------------------------------------------
    \4\ On March 3, the EXCOM was notified that the accumulation of the 
most recent technical trouble with the VIIRS instrument required delays 
in the predicted launch dates for NPP and the NPOESS satellites. A new 
baseline was to be submitted by June 4.
---------------------------------------------------------------------------
    Mr. Powner will testify that, despite the efforts undertaken to 
repair the weaknesses in the EXCOM, ``. . . it has not effectively 
fulfilled its responsibilities and does not have the membership and 
leadership it needs to effectively or efficiently oversee and direct 
the NPOESS program.'' Part of the problem involved the fact that while 
the Secretary of the Air Force was serving as DOD's EXCOM 
representative, he had no authority to make commitments for DOD. The 
Under Secretary of Defense for Acquisition, Technology and Logistics 
had not delegated authority to make commitments for DOD when reaching 
procurement milestones. As GAO noted, however, the Under Secretary did 
not attend EXCOM meetings, which contributed to the inability to gain 
approval on the Memorandum of Agreement and the program baseline.
    Thus the situation continues, and indeed has fueled growing 
friction between the program participants. GAO's report illuminates 
this where it states:

         At the conclusion of our review, DOD officials reported that 
        part of the problem in escalating risks is that, in violation 
        of interagency agreements and inconsistent with DOD acquisition 
        policy, two senior NOAA officials review and limit what the 
        Program Executive Officer provides to the Executive Committee. 
        NOAA officials and the Program Executive Officer strongly 
        disagreed with this statement. NASA commented that NOAA's 
        enhanced oversight provides a healthy set of checks and 
        balances to the program.

    GAO also described in its draft report that the EXCOM fails to make 
clear decisions and does not regularly determine if progress is being 
made on the tasks it has ordered to be accomplished. GAO found no 
mechanism for tracking EXCOM decision milestones. Compounding this lack 
of oversight, the decisions that have been made often did little to 
actually resolve the problem. This is most clearly seen in the 
continuing inability to bring the primary sensor, the Visible Infrared 
Imaging Radiometer Suite (VIIRS), to completion. Despite continued 
pressure on prime contractor Northrop Grumman to achieve improved 
performance from Raytheon, the EXCOM has not been able to solve this 
major impediment to NPOESS progress.
    Having been constituted by the EXCOM, Mr. Young's Independent 
Review Team proved diplomatic in its comments. Still, it raised 
concerns similar to those highlighted in GAO's report. As it concluded:

         The EXCOM process is ineffective: The EXCOM is intended to be 
        a decision body to provide streamlined direction to the PEO. 
        The current DOD EXCOM representative has not been delegated the 
        proper authority from the Defense Acquisition Executive (DAE), 
        who is also the NPOESS Milestone Decision Authority (MDA), and 
        decisions require an additional meeting and coordination to be 
        finalized. Additionally, the IRT has observed that many of the 
        topics that are discussed at the EXCOM delve too deeply into 
        program details and many critical top level issues are left 
        unresolved.

    GAO recommends that the Under Secretary for Acquisitions, 
Technology and Logistics be directed to attend EXCOM meetings. It 
further recommends that the EXCOM devise a realistic timeline for 
revising the program baseline, develop a plan to mitigate data gaps and 
pay closer attention to the outcome from its decisions.
    Mr. Young argues that the EXCOM should play a different role if the 
NPOESS program becomes a NOAA-NASA responsibility. In that case, the 
EXCOM will provide DOD continuing insight into the NPOESS program. 
While DOD believes its needs are being met by the current generation of 
instruments, it is also the case that users often cannot recognize 
benefits from new technology until they are presented real, not 
theoretical, products to evaluate. That is very likely to be the case 
with NPOESS. Mr. Young believes that the EXCOM will then serve as the 
forum by which DOD participates in the continuing evolution of data 
requirements for future systems.

C. Cost Increases and Schedule Delays
    The NPOESS program has changed significantly since its inception in 
1994. A fundamental restructuring took place in 2005 and 2006 as a 
result of the breach of cost ceilings defined by the so-called Nunn-
McCurdy provision of DOD procurement law. The recertified program, 
announced in June 2006, provided for the following:

        <bullet>  The estimate for acquisition cost rose to $11.5 
        billion (with an additional $1 billion to cover operating 
        costs, making the total life cycle cost $12.5 billion).

        <bullet>  Only two satellites were guaranteed to be built, with 
        the first launch scheduled for 2013.

        <bullet>  A decision to buy two more satellites, and to 
        reconsider the program's management structure, was to be made 
        in 2010.

        <bullet>  The capabilities of the satellites were reduced, in 
        that one of the major instruments (the Conical Microwave 
        Imaging Sounder) was removed, to be replaced with a less-
        capable instrument on the second NPOESS satellite that would be 
        launched in 2016. Also removed were instruments intended to 
        extend the data records for monitoring the Earth's climate, and 
        to track events on the Sun that had the potential to disturb 
        the planet's geomagnetic environment.

    In the past seven years, Committee hearings on the NPOESS program 
have documented a continuing rise in the program's life cycle cost 
estimate and repeated delays in the expected launch dates for the 
satellites. Using Mr. Powner's statements at these hearings, the 
following table demonstrates the growing life cycle cost and schedule 
delays:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The $14.9 billion estimate, according to Mr. Powner, includes some 
$1 billion in additional costs for the sensor problems, possible 
information security upgrades and estimates for the operational costs 
for the last two years of the program's life. Thus, the program has 
doubled in cost and yet will result in fewer satellites. It should also 
be of concern that, despite the effort to reduce or eliminate risk in 
the NPOESS program, cost increases on the order of $1 billion per year 
are continuing to occur.
    During the 2005 Nun-McCurdy recertification, continuity of the 
existing data streams was the highest priority. As the Independent 
Review Team report notes,

         While continuity of data is a critical priority for all users, 
        it is at extreme risk: If all satellites are delivered on 
        schedule, launched without incident, and meet their full design 
        life, there will be no significant gap in capabilities. In 
        keeping with historical trends, there is a high likelihood of 
        early problems with the first few satellites. If NPOESS 
        exhibits similar characteristics, there will be a minimum gap 
        of several months. If there is a launch failure--a 41 percent 
        chance of occurring over the remaining DMSP launches, NPP and 
        NPOESS--there is a high likelihood of a gap measured in years . 
        . ..

    NOAA's has assured data continuity by its policy of assuring spare 
satellites available for launch in case a satellite is lost at launch 
or fails prematurely. In the case of the geostationary program, NOAA 
provides a spare in orbit to reduce the time needed to respond to 
failure. This recently proved important when the current Geostationary 
Operational Environmental Satellite covering the eastern United States 
(GOES-12) suffered problems. NOAA was able to place the existing spare, 
GOES-13, into service until it could restore GOES-12 to duty.
    This policy for backup satellites was also provided in the original 
NPOESS program. Yet by the time NOAA launched the last of its polar 
satellites, NOAA-19, on February 6,\5\ the extreme risk identified by 
the IRT became concrete. NOAA is now dependent on NOAA-19 lasting at 
least for two years without incident, assuming that NPP achieves its 
planned launch in January 2011. NOAA has been fortunate in that it has 
not lost a satellite in a launch accident for some time. While it has 
been clear for some time that the NPP satellite would take on this 
``gap-filler'' operational role, it also is designed for a four- to 
five-year lifetime. Should the first NPOESS satellite be lost,\6\ NPP 
would be expected to carry on well into the next decade. The second 
NPOESS satellite is intended to operate in the morning orbit, which is 
of primary interest to DOD. The risk is somewhat lower there as DOD 
still has three of its DMSP satellites in reserve.
---------------------------------------------------------------------------
    \5\ NOAA-19 was substantially rebuilt after it was dropped on the 
floor September 6, 2003 at the Lockheed Martin production facility. 
NOAA has regularly assured the Committee that all damage has been 
completely repaired.
    \6\ The change to operational status affects primarily the ground 
system, as NPP was originally intended to provide data only to NOAA and 
one of three military forecasting centers. The satellite will now serve 
all four centers.

D. Program Status
    The NPOESS program last month completed a Critical Design Review on 
the NPOESS system. Northrop Grumman's program manager commented 
afterwards that, ``The team demonstrated that the majority of the 
detailed design is complete and meets requirements. NPOESS is at a 
higher level of design maturity than typical at this milestone as a 
result of building sensors and ground elements for the NPOESS 
Preparatory Project . . ..'' The Government's System Program Director 
reported to the EXCOM on May 22 that the consensus favored going 
forward with the first NPOESS satellite, but with important 
qualifications:

        <bullet>  NPOESS satellite integration and test schedule is 
        high risk

        <bullet>  Four percent (16/458) of the non-KPP (Key Performance 
        Parameter) attributes do not meet specification

        <bullet>  Compliance to baseline design depends on unapproved 
        changes

        <bullet>  Government Furnished Equipment (GFE) sensor design 
        insight and maturity is lacking

    Open items from the Review are expected to be resolved by August.
    The Visible Infrared Imaging Radiometer Suite (VIIRS) instrument, 
which has been the critical pacing item for some time now, is now 
undergoing critical thermal-vacuum testing to determine if it can 
withstand the conditions it will face during operation. The Cross-Track 
Infrared Sounder (CrIS) is progressing through the steps needed to 
restore the instrument following failure of the frame during vibration 
testing. Screws in one element of the Ozone Mapping and Profiler Suite 
(OMPS) will be replaced to assure they were properly tightened. Funding 
from the NOAA's allocation in the American Recovery and Reinvestment 
Act has been used to assure that the Total Solar Irradiance Sensor 
(TSIS) and Earth Radiation Budget Sensor (ERBS) will be able to fly on 
NPP, thus avoiding gaps in critical climate data collections.
    The Integrated Program Office has also been contributing to efforts 
currently underway in the NPOESS agencies to assist the White House in 
responding to the recommendations from the two reports to be discussed 
at the Subcommittee's hearing.
    Chairman Miller. Good afternoon and welcome to today's 
hearing, Continuing Independent Assessment of the National 
Polar-Orbiting Operational Environmental Satellite System, 
NPOESS. Today, this subcommittee will receive two reports on 
the perennially unsettled NPOESS, the National Polar-Orbiting 
Operational Environmental Satellite System. The Science 
Committee, under the Chairmanship of former Chairman Boehlert 
and our current Chairman Gordon, have devoted years of 
oversight to this program, and despite our relentless pressure, 
our relentless oversight, to get this program under control, we 
meet again to learn what is going on, that the NPOESS 
satellites are facing another delay, another schedule slip, and 
that the total cost expected has grown an additional billion 
dollars.
    The Committee's first hearing on this subject was in 2003, 
my first year in Congress. At that time, the first NPOESS 
satellite was projected for launch in 2009, this year. Here we 
are. Six years of effort have gained us one year of expected 
progress. Now we think that the first NPOESS satellite is 
likely to fly in 2014.
    But if the math is correct and we continue to advance at 
the rate that we are advancing, the satellite will not really 
be ready for launch until 2039.
    That is obviously not acceptable. The delays and cost 
overruns we will hear about today are not the most important 
news from the hearing. The most important news is what steps 
need to be taken to reorganize the management of this program 
in order to achieve a successful launch by 2014. We probably 
can't manage one this year at this point.
    To help us understand what still needs to be done, two 
independent groups have given us the results of their recent 
works. The Government Accountability Office, GAO, their team 
represented by Mr. David Powner, has given the Committee 
invaluable help overseeing NOAA's satellite programs. We are 
also fortunate today to welcome Mr. Tom Young, who has found it 
hard to enjoy his retirement with all of the investigations of 
government space programs that we have asked him to lead in 
recent years. He will present the findings of an Independent 
Review Team that has just completed its review of the NPOESS 
program management. Both Mr. Powner and Mr. Young have 
recommendations for Congress and the Administration regarding 
how to restructure the management of this program to get it 
back on track.
    And our third witness is NOAA Deputy Under Secretary Mary 
Glackin, who has recently taken on this thankless, difficult 
task of trying to shepherd NPOESS to a successful conclusion, 
by which I assume we mean actually launching one. Serving in 
her position since December of 2007 means that she should have 
some historical perspective on all of the questions facing NOAA 
and the Administration. Fundamentally, we hope she will help 
shed light on why the last Director of OSTP failed to make 
decisions on this project that are now left to the new 
Administration.
    I think that Mr. Young, Mr. Powner and Ms. Glackin will all 
agree that NPOESS now needs key guidance that only the White 
House can deliver. As a project shared among three agencies, 
the Department of Defense, NASA and NOAA, NPOESS is cursed by 
too many cooks and no agreed-upon recipe for the proper mission 
for the program. Only the White House can settle those 
differences and decide a path forward. The Subcommittee asked 
OSTP to send a representative today, but unfortunately a 
national security exercise has kept all senior OSTP staff 
occupied today. So instead of being here at the Rayburn 
Building, they are presumably at an undisclosed, secure 
location.
    When it comes to NPOESS, it has been years since we had the 
luxury of time for making decisions. NOAA recently made its 
last polar satellite operational. Its predicted lifetime is 
five years. With every passing month, GAO reminds us that we 
get closer to the probability of a data interruption in weather 
data as well as the certain interruption in climate data. NOAA 
primarily pins its hopes to avoiding such a data gap by using 
the NPP satellite, which was never intended as an operational 
satellite, as a gap-filler. I would feel much more confident 
with that plan if the NPP launch schedule was not also slipping 
and if we actually knew whether its main instrument was going 
to work.
    On March 12, speaking to State officials about the Recovery 
Act, President Obama said, ``If we see money being misspent, 
we're going to put a stop to it.'' We have seen money misspent 
on NPOESS, but stopping NPOESS is not an option. NPOESS may be 
a mess--no real maybe about it--and it may have been 
mismanaged--not much maybe about that either--but the American 
public needs the data produced by NPOESS in order to have 
accurate weather forecasts, and the world needs the climate 
data that would be collected by NPOESS to continue to 
understand how our climate is changing. Cancellation of NPOESS 
is not an option, and failure is unacceptable. If we do not 
have NPOESS, we will need something like it, and we will need 
it soon.
    We will spend our time today trying to deal with the 
program as it is, determine where we need to go and decide how 
we will get there from here.
    I want to thank the witnesses for appearing today, and I 
now recognize my colleague from Georgia, the Ranking Member, 
Dr. Broun.
    [The prepared statement of Chairman Miller follows:]
               Prepared Statement of Chairman Brad Miller
    Good afternoon.
    Today, the Subcommittee on Investigations and Oversight will 
receive two reports on the perennially unsettled National Polar-
Orbiting Operational Environmental Satellite System (NPOESS). The 
Science Committee, under the leadership of former Chairman Boehlert and 
current Chairman Gordon, has devoted years of oversight to this 
program. Despite our relentless pressure to get this program under 
control, we meet again to learn that the NPOESS satellites are facing 
another schedule slip and that the total expected cost has grown an 
additional billion dollars.
    The Committee's first hearing on this subject was in 2003, my first 
year in Congress. At that time, the first NPOESS satellite was 
projected for launch in 2009. Here we are in 2009, and six years of 
effort have gained us only one year of progress; now the first NPOESS 
satellite is slated to fly in 2014.
    If my math is correct, at this rate we will not get an NPOESS 
satellite ready for launch until 2039.
    That is obviously unacceptable. The delays and cost overruns we 
will hear about today are not the most important news from this 
hearing; the most important news is what steps need to be taken to 
reorganize the management of this program in order to guarantee a 
successful launch in 2014.
    To help us understand what must be done, two independent groups 
will give us the results of their recent work. The Government 
Accountability Office (GAO) team represented by Mr. David Powner has 
given the Committee invaluable help overseeing NOAA's satellite 
programs. We are also fortunate to welcome today Mr. Tom Young, who has 
found it hard to enjoy retirement with all of the investigations of 
Government space programs he has been asked to lead in recent years. He 
will present the findings of an Independent Review Team that has just 
completed its review of NPOESS program management. Both Mr. Powner and 
Mr. Young have recommendations for the Congress and the Administration 
regarding how to restructure the management of this program to get it 
back on track.
    Our third witness, NOAA Deputy Under Secretary Mary Glackin, has 
recently taken on the difficult task of trying to shepherd NPOESS to a 
successful conclusion. Serving in her position since December of 2007 
means she should have some historical perspective on all of the 
questions facing NOAA and the Administration. Fundamentally, we hope 
she will help shed light on why the last Director of OSTP failed to 
make decisions on this project that are now left to the new 
Administration.
    I think that Mr. Young, Mr. Powner and Ms. Glackin will all agree 
that NPOESS now needs key guidance that only the White House can 
deliver. As a project shared among three agencies--the Department of 
Defense, NASA and NOAA--NPOESS is cursed by too many cooks and no 
agreed upon recipe for the proper mission for the program. Only the 
White House can settle these differences and carve a clear path 
forward. The Subcommittee asked OSTP to send a representative today, 
but unfortunately a national security exercise has kept all senior OSTP 
staff occupied today.
    When it comes to NPOESS, it has been years since we had the luxury 
of time for making decisions. NOAA recently made its last polar 
satellite operational. Its predicted lifetime is five years. With every 
passing month, GAO reminds us that we get closer to the probability of 
a data interruption in weather data as well as the certain interruption 
in climate data. NOAA primarily pins its hopes to avoiding a data gap 
by using the NPP satellite--which was never intended as an operational 
satellite--as a gap-filler. I would feel more confident with that plan 
if the NPP launch schedule was not also slipping, and if we actually 
knew whether its primary instrument was going to work.
    On March 12, speaking to State officials about the Recovery Act, 
President Obama said, ``If we see money being misspent, we're going to 
put a stop to it.'' Unfortunately, we've seen money misspent on NPOESS, 
but stopping NPOESS is not an option. NPOESS may be a mess and it may 
have been mismanaged, but the American public needs the data produced 
by NPOESS in order to have accurate weather forecasts, and the world 
needs the climate data that would be collected by NPOESS to continue to 
understand how our climate is changing. Cancellation is not an option 
and failure is unacceptable. If we do not have NPOESS, we will need 
something very much like it. We will spend our time today trying to 
deal with the program as it is, determine where we need to go and 
decide how we will get there from here.
    I want to thank the witnesses for appearing before the Subcommittee 
this afternoon and recognize my colleague from Georgia, Ranking Member 
Broun.

    Mr. Broun. Thank you, Mr. Chairman. I want to welcome our 
witnesses here today and thank them for participating in this 
important hearing.
    This is the Committee's sixth hearing on the NPOESS 
program, spanning both Democratic as well as Republican 
controls of the Committee. This is, however, the first time 
that this committee, the Investigations and Oversight 
Subcommittee, has held a hearing, but we have been actively 
involved for some time now.
    NPOESS was originally planned to create synergies and cost 
savings by combining the DMSP within the Department of Defense 
and the POES system at NOAA. But instead, the program has 
doubled in cost, shrunk from six to four satellites, degraded 
its sensor capabilities, and seen its schedule slip six years. 
If that wasn't bad enough, Mr. Young points out in his 
testimony that, and I quote him, ``The current program has an 
extraordinarily low probability of success,'' even after 
numerous rebase linings and a significant Nunn-McCurdy 
recertification.
    So how did we get here? After several years of cooperation 
it has become clear that the partner agencies had differing 
priorities and levels of commitment. This is certainly 
expected. There are unique missions. But this divergence has 
ultimately created an untenable partnership. NOAA is pressured 
by the scientific community to continue operation of research 
satellites that feed cutting-edge data into weather and climate 
models, while DOD is content to operate legacy hardware. NOAA 
doesn't have any extra POES satellites to buff its transition, 
while DOD still has two DMSP satellites on the ground. This is 
NOAA's flagship mission, yet this barely amounts to a rounding 
error in the Pentagon's budget.
    Another reason is simply that space acquisition isn't easy. 
This isn't an excuse, but it is worth noting that we aren't 
asking these agencies to build cardboard boxes. Sure, the 
government could do better with cost estimating, with 
procurement, and contract management. But in the end we are 
building one-of-a-kind, innovative hardware and launching it 
17,500 miles per hour into the vacuum of space.
    Because of this complexity, we have sought to limit our 
costs by putting numerous sensors on fewer spacecraft and 
launch vehicles, thereby restricting the opportunities for 
performance upgrades to generational timeframes. In doing so, 
we have created a program that is essentially too big to fail, 
a phrase we have all heard lately to describe another huge 
fiasco. By placing all of our eggs in one basket, we have 
developed an architecture where it seems failure is not an 
option. Further compounding the problem are issues of 
requirement creeps from climate sensors, schedule pressure 
because of data continuity concerns, and cost caps from 
external factors like Nunn-McCurdy.
    It really isn't surprising that the program isn't run well 
when the managers can't fine tune fundamental program 
management parameters like cost, schedule and performance.
    So where do we go from here? The GAO and the Independent 
Review Team have offered recommendations, and NOAA has proposed 
future management budget and data options. The IRT states that 
this program will ultimately require the White House to weigh 
in. We certainly have near-term decisions on the horizon as 
well as long-term plans to consider.
    I look forward to exploring the implications of these 
options and proposed directions with the Chairman. NPOESS is a 
critical national asset that deserves not only this committee's 
attention but also that of all partner agencies, the White 
House, and the appropriators. Every American is impacted by 
this program, whether they know it or not. It is our 
responsibility to ensure that the farmers, fishermen, soldiers 
and sailors, Marines, and everyday commuters continue to 
receive weather and climate information, but we must not forget 
to be good stewards of taxpayers' money and to root out waste, 
inefficiency, and duplication wherever we can.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    [The prepared statement of Mr. Broun follows:]
           Prepared Statement of Representative Paul C. Broun
    Thank you, Mr. Chairman. I want to welcome our witnesses here today 
and thank them for participating in this important hearing. This is the 
Committee's sixth hearing on the National Polar-Orbiting Operational 
Environmental Satellite System (NPOESS), spanning both Democratic and 
Republican control of the Committee. This is, however, the first time 
the Investigations and Oversight Subcommittee has held a hearing, but 
we have been actively involved for some time now.
    NPOESS was originally planned to create synergies and cost-savings 
by combining the Defense Meteorological Satellite Program (DMSP) within 
the Department of Defense (DOD) and the Polar-Orbiting Environmental 
Satellite (POES) System at the National Oceanic and Atmospheric 
Administration (NOAA). Instead, the program has doubled in cost, shrunk 
from six to four satellites, degraded its sensor capabilities, and seen 
its schedule slip six years. If that wasn't bad enough, Mr. Young 
points out in his testimony that ``the current program has an 
extraordinarily low probability of success''--even after numerous 
rebaselinings and a significant Nunn-McCurdy recertification.
    So how did we get here? After several years of cooperation, it has 
become clear that the partner agencies have differing priorities and 
levels of commitment. This is certainly expected given their unique 
missions, but this divergence has ultimately created an untenable 
partnership. NOAA is pressured by the scientific community to continue 
operation of research satellites that feed cutting-edge data into 
weather and climate models, while DOD is content to operate legacy 
hardware. NOAA doesn't have any extra POES satellites to buffer its 
transition, while DOD still has two DMSP satellites on the ground. This 
is NOAA's flagship mission, yet this barely amounts to a rounding error 
in the Pentagon's budget.
    Another reason is simply that space acquisition isn't easy. This 
isn't an excuse, but it is worth noting that we aren't asking these 
agencies to build cardboard boxes. Sure, the government could do better 
with cost-estimating, procurement, and contract management, but in the 
end we are building one-of-a-kind innovative hardware and launching it 
17,500 miles per hour into the vacuum of space.
    Because of this complexity, we have sought to limit our costs by 
putting numerous sensors on fewer spacecraft and launch vehicles 
thereby restricting the opportunities for performance upgrades to 
generational timeframes. In doing so, we have created a program that is 
essentially ``too big to fail''--a phrase we have all heard lately to 
describe another fiasco. By placing all of our eggs in one basket, we 
have developed an architecture where it seems failure is not an option. 
Further compounding the problem are issues of requirements creep from 
climate sensors, schedule pressure because of data continuity concerns, 
and cost caps from external factors like Nunn-McCurdy. It really isn't 
surprising that the program isn't run well when the managers can't 
fine-tune fundamental program management parameters like cost, 
schedule, and performance.
    So where do we go from here? The General Accountability Office 
(GAO) and the Independent Review Team (IRT) have offered 
recommendations, and NOAA has proposed future management, budget, and 
data options. The IRT states that this program will ultimately require 
the White House to weigh in. We clearly have near-term decisions on the 
horizon, as well as long-term plans to consider.
    I look forward to exploring the implications of these options and 
proposed directions with the Chairman. NPOESS is a critical national 
asset that deserves not only this committee's attention, but also that 
of all the partner agencies, the White House, and the Appropriators.
    Every American is impacted by this program whether they know it or 
not. It is our responsibility to ensure that the farmers, fisherman, 
war-fighters, and everyday commuters continue to receive weather and 
climate information. But we must not forget to be good stewards of 
taxpayers' money and root out waste, inefficiency and duplication where 
we can.
    Thank you Mr. Chairman, I yield back my time.

    Chairman Miller. Thank you, Dr. Broun. I now ask unanimous 
consent that all additional opening statements submitted by 
Members be included in the record, and without objection, it is 
so ordered.
    It is now my pleasure to introduce our witnesses at this 
time. Mr. David Powner is the Director of Information 
Technology Management Issues at the Government Accountability 
Office. Mr. Tom Young is the Chair of the NPOESS Independent 
Review Team, and Ms. Mary Glackin is the Deputy Under Secretary 
for Oceans and Atmosphere at the National Oceanic and 
Atmospheric Administration.
    As our witnesses should know, you will each have five 
minutes for your spoken testimony. Your written testimony will 
be included in the record for the hearing. When you have 
completed your spoken testimony, we will begin with questions. 
Each Member will have five minutes to question the panel.
    It is the practice of the Subcommittee to receive testimony 
under oath. Do any of you have any objection to taking an oath? 
All the witnesses indicated that they did not. You also have 
the right to be represented by counsel. Do any of you have 
counsel here? All the witnesses indicated that they did not. If 
you will now please stand and raise your right hand? Do you 
swear to tell the truth and nothing but the truth? All the 
witnesses responded in the affirmative. So the witnesses have 
now taken the oath.
    We will begin with Mr. David Powner. Mr. Powner, please 
begin.

    STATEMENT OF MR. DAVID A. POWNER, DIRECTOR, INFORMATION 
TECHNOLOGY MANAGEMENT ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE 
                             (GAO)

    Mr. Powner. Chairman Miller, Ranking Member Broun, and 
Members of the Subcommittee, we appreciate the opportunity to 
testify on our latest NPOESS report being released today. This 
afternoon I will discuss NPOESS's continued problems and our 
recommendations for improvement, both near- and long-term, so 
that our nation will have continued data and imagery essential 
for weather forecasting and climate monitoring.
    Six years ago I first testified on NPOESS before Chairman 
Ehlers' Subcommittee when NPOESS was a $7 billion program and 
the launch of its first satellite was April 2009. Today the 
cost has increased $8 billion to at least $15 billion, and the 
first satellite launch has been delayed five years to March 
2014.
    I will briefly discuss these increasing costs, schedule 
delays, as well as potential gaps in critical satellite 
coverage and ineffective executive management.
    The current cost of $14 billion and the various planned 
launch schedules are not achievable. Technical problems with 
two critical sensors, VIIRS and CrIS, continue to drive up 
costs and push launch schedules out. We expect the current $14 
billion estimate to increase at least a billion dollars to 
cover sensor technical issues, new security requirements, and 
additional operations and maintenance costs.
    We also need to keep in mind that the integration and 
testing of the sensors for the initial satellites has not yet 
occurred, and this could be an additional cost driver. The new 
cost estimates are scheduled to go to the EXCOM for approval by 
the end of the month, and we understand that at least five 
estimates are being considered.
    Schedules for the demonstration satellite known as NPP, and 
the first two satellites have been delayed seven, fourteen, and 
five months, respectively. These delays endanger the continuity 
of weather and climate data. With the current launch schedule, 
should we run into any problems with the satellite launch 
failure or operational problems, we will have gaps in satellite 
coverage. My written testimony highlights these potential gaps 
in each of the three orbits. In fact, a single launch failure 
of one of the remaining DOD satellites known as DMSP or of NPP 
could result in a gap in satellite coverage of up to five 
years.
    NOAA has been plagued by ineffective management over the 
years, and today our report highlights that NPOESS's executive 
committee has not been effective in fulfilling its 
responsibilities, which has contributed to NPOESS's problems. 
Specifically, the right folks don't attend the EXCOM meetings. 
Those that do don't effectively manage risks, nor do they make 
tough decisions when needed. For example, DOD's Under Secretary 
for Acquisition is DOD's official EXCOM member as agreed to in 
official memorandums of agreement. This official whose DOD's 
acquisition authority has never attended an EXCOM meeting and 
has delegated this role to the Under Secretary of the Air 
Force. Not having the acquisition authority attend these 
meetings has resulted in delays as the EXCOM decisions have 
later been overturned by the acquisition authority.
    The bottom line here is that having the right officials 
attend could greatly streamline decision making. In addition, 
although the EXCOM holds quarterly meetings, they do not 
routinely track action items and issues to closure. Also, the 
tri-agency structure creates a situation of differing and 
competing priorities, and the EXCOM has not been effective in 
resolving these differences. In fact, the EXCOM is about to be 
presented with differing cost estimates by the end of the month 
where they will be asked to make a tough decision on the right 
program cost and scope, especially given the fact that NOAA and 
DOD will likely have differing costs and program performance 
that are acceptable.
    Before discussing our recommendation, I would like to note 
a few areas of progress. The NPOESS program has delivered and 
integrated three of the five instruments for NPP. The ground 
station systems have been installed and tested at both 
locations, and the command and control system has passed 
acceptance testing. However, moving forward, we recommend that 
in the near-term the NPOESS program needs to have the right 
EXCOM members attend and participate in the EXCOM meetings, and 
this includes DOD's Under Secretary for Acquisition. Also, the 
EXCOM needs to effectively manage risks and make decisions, 
starting with approving new program costs and scheduled base 
lines.
    The program also needs to develop mitigation plans to 
address potential gaps in satellite coverage, and it needs to 
seek White House guidance on a direction forward. These near-
term recommendations are essential to keep the acquisition 
moving forward, to mitigate future cost increases, schedule 
delays, and gaps in satellite coverage.
    Looking at this from a longer-term perspective, we need to 
acknowledge this tri-agency experiment has been an epic 
failure, and we need an exit strategy to go back to separate 
satellite acquisitions for the next series of polar orbiting 
satellites.
    Mr. Chairman, this concludes my statement. Thank you for 
your leadership and oversight of this acquisition.
    [The prepared statement of Mr. Powner follows:]
                 Prepared Statement of David A. Powner

            Polar-Orbiting Satellites: With Costs Increasing

               and Data Continuity at Risk, Improvements

                  Needed in Tri-agency Decision Making

Mr. Chairman and Members of the Subcommittee:

    Thank you for the opportunity to participate in today's hearing on 
the National Polar-orbiting Operational Environmental Satellite System 
(NPOESS). NPOESS is expected to be a state-of-the-art satellite system 
that will replace two existing satellite systems. It is considered 
critical to the United States' ability to maintain the continuity of 
data required for weather forecasting (including severe weather events 
such as hurricanes) and global climate monitoring. Three agencies share 
responsibility for NPOESS: the Department of Commerce's National 
Oceanic and Atmospheric Administration (NOAA), the Department of 
Defense (DOD)/United States Air Force, and the National Aeronautics and 
Space Administration (NASA). As requested, this statement summarizes 
our report being released today that (1) identifies the status and 
risks of key program components, (2) assesses the NPOESS Executive 
Committee's ability to fulfill its responsibilities, and (3) evaluates 
efforts to identify an alternative system integrator for later NPOESS 
satellites.\1\
---------------------------------------------------------------------------
    \1\ GAO, Polar-orbiting Environmental Satellites: With Costs 
Increasing and Data Continuity at Risk, Improvements Needed in Tri-
agency Decision Making, GAO-09-564 (Washington, D.C.: June 17, 2009).
---------------------------------------------------------------------------
    In preparing this testimony, we relied on our work supporting the 
accompanying report. That report contains a detailed overview of our 
scope and methodology. All of our work for this report was performed in 
accordance with generally accepted government auditing standards. Those 
standards require that we plan and perform the audit to obtain 
sufficient, appropriate evidence to provide a reasonable basis for our 
findings and conclusions based on our audit objectives. We believe that 
the evidence obtained provides a reasonable basis for our findings and 
conclusions based on our audit objectives.

Background

    Polar-orbiting satellites provide data and imagery that are used by 
weather forecasters, climatologists, and the military to map and 
monitor changes in weather, climate, the oceans, and the environment. 
Since the 1960s, the United States has operated two separate 
operational polar-orbiting meteorological satellite systems: the Polar-
orbiting Operational Environmental Satellite (POES) series, which is 
managed by NOAA, and the Defense Meteorological Satellite Program 
(DMSP), which is managed by the Air Force. Currently, there is one 
operational POES satellite and two operational DMSP satellites that are 
positioned so that they can observe the Earth in early morning, mid-
morning, and early afternoon polar orbits. In addition, the government 
is also relying on a European satellite, called Meteorological 
Operational, or MetOp, in the mid-morning orbit.
    With the expectation that combining the POES and DMSP programs 
would reduce duplication and result in sizable cost savings, a May 1994 
Presidential Decision Directive required NOAA and DOD to converge the 
two satellite programs into a single satellite program capable of 
satisfying both civilian and military requirements.\2\ The converged 
program, NPOESS, is considered critical to the United States' ability 
to maintain the continuity of data required for weather forecasting and 
global climate monitoring. To manage this program, DOD, NOAA, and NASA 
formed the tri-agency Integrated Program Office, located within NOAA. 
Within the program office, each agency has the lead on certain 
activities: NOAA has overall program management responsibility for the 
converged system and for satellite operations; the Air Force has the 
lead on the acquisition; and NASA has primary responsibility for 
facilitating the development and incorporation of new technologies into 
the converged system. NOAA and DOD share the cost of funding NPOESS, 
while NASA funds specific technology projects and studies. In addition, 
an Executive Committee--made up of the administrators of NOAA and NASA 
and the Under Secretary of Defense for Acquisition, Technology, and 
Logistics--is responsible for providing policy guidance, ensuring 
agency support and funding, and exercising oversight authority.\3\ The 
Executive Committee manages the program through a Program Executive 
Officer who oversees the NPOESS program office.
---------------------------------------------------------------------------
    \2\ Presidential Decision Directive NSTC-2, May 5, 1994.
    \3\ The Under Secretary of Defense for Acquisition, Technology, and 
Logistics delegated the responsibility for attending the meetings--but 
not the authority to make acquisition decisions--to the Under Secretary 
of the Air Force.
---------------------------------------------------------------------------
    Since the program's inception, NPOESS costs have grown to $13.95 
billion, and launch schedules have been delayed by up to five years.\4\ 
In addition, as a result of a 2006 restructuring of the program, the 
agencies reduced the program's functionality by removing two of six 
originally planned satellites and one of the orbits. The restructuring 
also decreased the number of instruments from 13 (10 sensors and three 
subsystems) to nine (seven sensors and two subsystems), with four of 
the sensors providing fewer capabilities. The restructuring also led 
agency executives to mitigate potential data gaps by deciding to use a 
planned demonstration satellite, called the NPOESS Preparatory Project 
(NPP) satellite, as an operational satellite providing climate and 
weather data. However, even after this restructuring, the program is 
still encountering technical issues, schedule delays, and the 
likelihood of further cost increases.
---------------------------------------------------------------------------
    \4\ Compared to original program plans, the demonstration satellite 
has been delayed by approximately four and a half years, while the 
first two NPOESS satellites have each been delayed by approximately 
five years.

Progress Made, But Continued Instrument Problems Are Driving Costs 
                    Upward, Forcing Launch Delays, and Endangering 
                    Satellite Continuity

    Over the past year, selected components of the NPOESS program have 
made progress. Specifically, three of the five instruments slated for 
NPP have been delivered and integrated on the spacecraft; the ground-
based satellite data processing system has been installed and tested at 
both of the locations that are to receive NPP data; and the satellites' 
command, control, and communications system has passed acceptance 
testing. However, problems with two critical sensors continue to drive 
the program's cost and schedule. Specifically, challenges with a key 
sensor's (the Visible/infrared imager radiometer suite (VIIRS) ) 
development, design, and workmanship have led to additional cost 
overruns and delayed the instrument's delivery to NPP. In addition, 
problems discovered during environmental testing on another key sensor 
(called the Cross-track infrared sounder (CrIS) ) led the contractor to 
further delay its delivery to NPP and added further unanticipated costs 
to the program. To address these issues, the program office halted or 
delayed activities on other components (including the development of a 
sensor planned for the first NPOESS satellite, called C1) and 
redirected those funds to fixing VIIRS and CrIS. As a result, those 
other activities now face cost increases and schedule delays.
    Program officials acknowledge that NPOESS will cost more than the 
$13.95 billion previously estimated, but they have not yet adopted a 
new cost estimate. Program officials estimated that program costs will 
grow by about $370 million due to recent technical issues experienced 
on the sensors and the costs associated with halting and then 
restarting work on other components of the program. In addition, the 
costs associated with adding new information security requirements to 
the program could reach $200 million.\5\ This estimate also does not 
include approximately $410 million for operations and support costs for 
the last two years of the program's life cycle (2025 and 2026). Thus, 
we anticipate that the overall cost of the program could grow by about 
$1 billion from the current $13.95 billion estimate--especially given 
the fact that difficult integration and testing of the sensors on the 
NPP and C1 spacecrafts has not yet occurred.\6\ Program officials 
reported that they plan to revise the program's cost estimate over the 
next few weeks and to submit it for executive-level approval by the end 
of June 2009.
---------------------------------------------------------------------------
    \5\ These estimates are subject to further refinement because the 
Executive Committee has not agreed on a cost estimating methodology and 
the agencies have not yet agreed to new information security 
requirements.
    \6\ This cost estimate includes launch vehicle costs of 
approximately $329 million, which are funded outside the program's 
baseline.
---------------------------------------------------------------------------
    As for the program's schedule, program officials estimate that the 
delivery of VIIRS to the NPP contractor will be delayed, resulting in a 
further delay in the launch of the NPP satellite to January 2011, a 
year later than the date estimated during the program restructuring--
and seven months later than the June 2010 date that was established 
last year. In addition, program officials estimated that the first and 
second NPOESS satellites would be delayed by 14 and five months, 
respectively, because selected development activities were halted or 
slowed to address VIIRS and CrIS problems. The program's current plans 
are to launch C1 in March 2014 and the second NPOESS satellite, called 
C2, in May 2016. Program officials notified the Executive Committee and 
DOD's acquisition authority of the schedule delays, and under DOD 
acquisition rules, are required to submit a new schedule baseline by 
June 2009.
    These launch delays have endangered our nation's ability to ensure 
the continuity of polar-orbiting satellite data. The final POES 
satellite, called NOAA-19, is in an afternoon orbit and is expected to 
have a five-year lifespan. Both NPP and C1 are planned to support the 
afternoon orbit. Should the NOAA-19 satellite fail before NPP is 
launched, calibrated, and operational, there would be a gap in 
satellite data in that orbit. Further, the delays in C1 mean that NPP 
will not be the research and risk reduction satellite it was originally 
intended to be. Instead, it will have to function as an operational 
satellite until C1 is in orbit and operational--and if C1 fails on 
launch or in early operations, NPP will be needed to function until C3 
is available, currently planned for 2018. The delay in the C2 satellite 
launch affects the early morning orbit. There are three more DMSP 
satellites to be launched in the early and midmorning orbits, and DOD 
is revisiting the launch schedules for these satellites to try to 
extend them as long as possible. However, an independent review team, 
established to assess key program risks, recently reported that the 
constellation of satellites is extremely fragile and that a single 
launch failure of a DMSP, NPOESS, or the NPP satellite could result in 
a gap in satellite coverage from three to five years.
    Although the program's approved cost and schedule baseline is not 
achievable and the polar satellite constellation is at risk, the 
Executive Committee has not yet made a decision on how to proceed with 
the program. Program officials plan to propose new cost and schedule 
baselines in June 2009 and have reported that they are addressing 
immediate funding constraints by deferring selected activities to later 
fiscal years in order to pay for VIIRS and CrIS problems; delaying the 
launches of NPP, C1, and C2; and assessing alternatives for mitigating 
the risk that VIIRS will continue to experience problems. Without an 
executive-level decision on how to proceed, the program is proceeding 
on a course that is deferring cost growth, delaying launches, and 
risking its underlying mission of providing operational weather 
continuity to the civil and military communities.

Executive Committee Has Not Effectively Fulfilled Its Responsibilities

    While the NPOESS Executive Committee has made improvements over the 
last several years in response to prior recommendations, it has not 
effectively fulfilled its responsibilities and does not have the 
membership and leadership it needs to effectively or efficiently 
oversee and direct the NPOESS program. Specifically, the DOD Executive 
Committee member with acquisition authority does not attend Committee 
meetings--and sometimes contradicts the Committee's decisions, the 
Committee does not aggressively manage risks, and many of the 
Committee's decisions do not achieve desired outcomes. Independent 
reviewers, as well as program officials, explained that the tri-agency 
structure of the program makes it very difficult to effectively manage 
the program. Until these shortfalls are addressed, the Committee is 
unable to effectively oversee the NPOESS program--and important issues 
involving cost growth, schedule delays, and satellite continuity will 
likely remain unresolved.

Executive Committee Has Responded to Past Recommendations
    We and others, including the Department of Commerce's Inspector 
General in a 2006 report, have reported that the Committee was not 
accomplishing its job effectively. However, since then, the Committee 
has met regularly on a quarterly basis and held interim teleconferences 
as needed. The Committee has also sought and reacted to advice from 
external advisors by, among other actions, authorizing a government 
program manager to reside on-site at the VIIRS contractor's facility to 
improve oversight of the sensor's development on a day-to-day basis. 
More recently, the Executive Committee sponsored a broad-based 
independent review of the NPOESS program and is beginning to respond to 
its recommendations.

Key Acquisition Executive Does Not Attend Executive Committee Meetings
    As established by the 1995 and 2008 memorandums of agreement signed 
by all three agencies, the members of the NPOESS Executive Committee 
are (1) the Under Secretary of Commerce for Oceans and Atmosphere; (2) 
the Under Secretary of Defense for Acquisition, Technology, and 
Logistics; and (3) the NASA Administrator.\7\ Because DOD has the lead 
responsibility for the NPOESS acquisition, the Under Secretary of 
Defense for Acquisition, Technology, and Logistics was also designated 
as the milestone decision authority--the individual with the authority 
to approve a major acquisition program's progression in the acquisition 
process, as well as any changes to the cost, schedule, and 
functionality of the acquisition. The intent of the tri-agency 
memorandums was that acquisition decisions would be agreed to by the 
Executive Committee before a final acquisition decision is made by the 
milestone decision authority.\8\
---------------------------------------------------------------------------
    \7\ The 1995 agreement specified that the NASA member would be the 
Deputy Administrator. Responsibility was subsequently taken over by the 
Administrator of NASA.
    \8\ The 1995 and 2008 memorandums of agreement differ slightly in 
this regard. The first agreement stated that DOD's milestone decision 
authority will make acquisition decisions with concurrence of the other 
Executive Committee members, while the second agreement states that the 
DOD authority must consider Committee decisions. The second agreement 
takes precedence in the case of a conflict.
---------------------------------------------------------------------------
    However, DOD's acquisition authority has never attended an 
Executive Committee meeting. This individual delegated the 
responsibility for attending the meetings--but not the authority to 
make acquisition decisions--to the Under Secretary of the Air Force. 
Therefore, none of the individuals who attend the Executive Committee 
meetings for the three agencies have the authority to approve the 
acquisition program baseline or major changes to the baseline. As a 
result, agreements between Committee members have been overturned by 
the acquisition authority, leading to significant delays.

Committee Does Not Aggressively Manage Risks
    To provide the oversight recommended by best practices,\9\ 
including reviewing data and calling for corrective actions at the 
first sign of cost, schedule, and performance problems and ensuring 
that actions are executed and tracked to completion, the Executive 
Committee holds quarterly meetings during which the program's progress 
is reviewed using metrics that provide an early warning of cost, 
schedule, and technical risks. However, the Committee does not 
routinely document action items or track those items to closure. Some 
action items were not discussed in later meetings, and in cases where 
an item was discussed, it was not always clear what action was taken, 
whether it was effective, and whether the item was closed.
---------------------------------------------------------------------------
    \9\ GAO, Information Technology Investment Management: A Framework 
for Assessing and Improving Process Maturity, GAO-04-394G (Washington, 
D.C.: March 2004).
---------------------------------------------------------------------------
    According to the Program Executive Officer, the closing of an 
action item is not always explicitly tracked because it typically 
involves gathering information that is presented during later Committee 
meetings. Nonetheless, by not rigorously documenting action items--
including identifying the party responsible for the action, the desired 
outcome, and the time frame for completion--and then tracking the 
action items to closure, the Executive Committee is not able to ensure 
that its actions have achieved their intended results and to determine 
whether additional changes or modifications are still needed. This 
impedes the Committee's ability to effectively oversee the program, 
direct risk mitigation activities, and obtain feedback on the results 
of its actions.

Committee Decisions Do Not Achieve Desired Outcomes
    Best practices call for oversight boards to take corrective actions 
at the first sign of cost, schedule, and performance slippages in order 
to mitigate risks and achieve successful outcomes.\10\ The NPOESS 
Executive Committee generally took immediate action to mitigate the 
risks that were brought before them; however, a majority of these 
actions were not effective--that is, they did not fully resolve the 
underlying issues or result in a successful outcome. The Committee's 
actions on the sensor development risks accomplished interim successes 
by improving the government's oversight of a subcontractor's activities 
and guiding next steps in addressing technical issues--but even with 
Committee actions, the sensors' performance has continued to falter and 
affect the rest of the program. Independent reviewers reported that the 
tri-agency structure of the program complicated the resolution of 
sensor risks because any decision could be revisited by another agency. 
Program officials explained that interagency disagreements and 
differing priorities make it difficult to effectively resolve issues.
---------------------------------------------------------------------------
    \10\ GAO-04-394G.

Program Has Assessed Alternatives, But Has Not Yet Identified a Viable 
                    Alternative for Acquiring the Last Two NPOESS 
                    Satellites

    When NPOESS was restructured in June 2006, the program included two 
satellites (C1 and C2) and an option to have the prime contractor 
produce the next two satellites (C3 and C4). In approving the 
restructured program, DOD's decision authority noted that he reserved 
the right to use a different satellite integrator for the final two 
satellites, and that a decision on whether to exercise the option was 
to be made in June 2010. To prepare for this decision, DOD required a 
tri-agency assessment of alternative management strategies. This 
assessment was to examine the feasibility of an alternative satellite 
integrator, to estimate the cost and schedule implications of moving to 
an alternative integrator, and within one year, to provide a viable 
alternative to the NPOESS Executive Committee.
    To address DOD's requirement, the NPOESS Program Executive Officer 
sponsored two successive alternative management studies; however, 
neither of the studies identified a viable alternative to the existing 
satellite integrator. The Program Executive Officer plans to conduct a 
final assessment of alternatives prior to the June 2010 decision on 
whether to exercise the option to have the current system integrator 
produce the next two NPOESS satellites. Program officials explained 
that the program's evolving costs, schedules, and risks could mean that 
an alternative that was not viable in the past would become viable. For 
example, if the prime contractor's performance no longer meets basic 
requirements, an alternative that was previously too costly to be 
considered viable might become so.

Implementation of Recommendations Could Improve Management and 
                    Oversight

    In the report being released today, we are making recommendations 
to improve the timeliness and effectiveness of acquisition decision-
making on the NPOESS program. Specifically, we recommend that the 
Secretary of Defense direct the Under Secretary of Defense for 
Acquisition, Technology, and Logistics to attend and participate in 
NPOESS Executive Committee meetings. In addition, we are recommending 
that the Secretaries of Defense and Commerce and the Administrator of 
NASA direct the NPOESS Executive Committee to take the following five 
actions: (1) establish a realistic time frame for revising the 
program's cost and schedule baselines; (2) develop plans to mitigate 
the risk of gaps in satellite continuity; (3) track the Committee's 
action items from inception to closure; (4) improve the Committee's 
ability to achieve successful outcomes by identifying the desired 
outcome associated with each of the Committee actions, as well as time 
frames and responsible parties, when new action items are established; 
and (5) improve the Committee's efficiency by establishing time frames 
for escalating risks to the Committee for action so that they do not 
linger unresolved at the program executive level.
    In written comments on a draft of our report, NASA and NOAA agreed 
with our findings and recommendations and identified plans to implement 
them. DOD concurred with one and partially concurred with our other 
recommendations. For example, regarding our recommendation to have the 
appropriate official attend Executive Committee meetings, the agency 
partially concurred and noted that the Under Secretary for Acquisition, 
Technology, and Logistics would evaluate the necessity of attending 
future Executive Committee meetings. DOD also reiterated that the Under 
Secretary of the Air Force was delegated authority to attend the 
meetings. While we acknowledge that the Under Secretary delegated 
responsibility for attending these meetings, it is an inefficient way 
to make decisions and achieve outcomes in this situation. In the past, 
agreements between Executive Committee members have been overturned by 
the Under Secretary, leading to significant delays in key decisions. 
The full text of the three agencies' comments and our evaluation of 
those comments are provided in the accompanying report.
    In summary, continued problems in the development of critical 
NPOESS sensors have contributed to growing costs and schedule delays. 
Costs are now expected to grow by as much as $1 billion over the prior 
life cycle cost estimate of $13.95 billion, and problems in delivering 
key sensors have led to delays in launching NPP and the first two 
NPOESS satellites--by a year or more for NPP and the first NPOESS 
satellite. These launch delays have endangered our nation's ability to 
ensure the continuity of polar-orbiting satellite data. Specifically, 
if any planned satellites fail on launch or in orbit, there would be a 
gap in satellite data until the next NPOESS satellite is launched and 
operational--a gap that could last for three to five years. The NPOESS 
Executive Committee responsible for making cost and schedule decisions 
and addressing the many and continuing risks facing the program has not 
yet made important decisions on program costs, schedules, and risks--or 
identified when it will do so. In addition, the Committee has not been 
effective or efficient in carrying out its oversight responsibilities. 
Specifically, the individual with the authority to make acquisition 
decisions does not attend Committee meetings, the Committee does not 
aggressively manage risks, and many of the Committee's decisions do not 
achieve desired outcomes. Until the Committee's shortfalls are 
addressed, important decisions may not be effective and issues 
involving cost increases, schedule delays, and satellite continuity may 
remain unresolved.
    Mr. Chairman and Members of the Subcommittee, this concludes our 
statement. We would be pleased to respond to any questions that you or 
other Members of the Subcommittee may have at this time.
    Staff Acknowledgments
    Other key contributors to this testimony include Colleen M. 
Phillips, Assistant Director; Kate Agatone; Neil Doherty; Kathleen S. 
Lovett; Lee McCracken; and China R. Williams.

                     Biography for David A. Powner

Experience

    Twenty years' experience in information technology issues in both 
public and private sectors.

Education

Business Administration, University of Denver

Senior Executive Fellows Program, Harvard University, John F. Kennedy 
        School of Government

Director, IT Management Issues, U.S. Government Accountability Office

    Dave is currently responsible for a large segment of GAO's 
information technology (IT) work, including systems development, IT 
investment management, health IT, and cyber critical infrastructure 
protection reviews.
    In the private sector, Dave has held several executive-level 
positions in the telecommunications industry, including overseeing IT 
and financial internal audits, and software development associated with 
digital subscriber lines (DSL).
    At GAO, Dave has led teams reviewing major IT modernization efforts 
at Cheyenne Mountain Air Force Station, the National Weather Service, 
the Federal Aviation Administration, and the Internal Revenue Service. 
These reviews covered many information technology areas including 
software development maturity, information security, and enterprise 
architecture.

    Chairman Miller. Thank you, Mr. Powner. Mr. Young.

  STATEMENT OF MR. A. THOMAS YOUNG, CHAIR, NPOESS INDEPENDENT 
                       REVIEW TEAM (IRT)

    Mr. Young. Chairman Miller, Ranking Member Broun, and 
Members of the Subcommittee, I am pleased to present a summary 
of the NPOESS Independent Review Team report.
    We identified 10 findings and recommended corrective 
actions.
    Finding one, the current NPOESS program has an 
extraordinarily low probability of success. Implementation of 
the following recommendations that I will discuss are necessary 
to address this finding.
    Two, continuity of data, which each user organization 
identifies as the number one priority, is at significant risk. 
The program is hardware poor with little protection against a 
launch failure or early spacecraft failure. Data outages in a 
particular orbit can be measured in years with a failure. 
Corrective action is limited to moving the third and fourth 
spacecraft closer to the first and second spacecraft in their 
development schedules, launching on need rather than schedule 
and exploiting NPP data.
    Three, NPOESS is being managed with cost as the most 
important parameter and not mission success. This program cost-
focused culture needs to change to a mission success-focused 
culture, and the NPOESS contract award fee criteria needs a 
similar change in focus.
    Four, NPOESS EXCOM is ineffective. Members must have 
decision authority. The focus of the EXCOM should be top-level 
issues and timely decisions.
    Five, NPOESS program is not part of a space acquisition 
organization, which makes program implementation extremely 
difficult. NPOESS must be assigned to a space acquisition 
organization such as Space and Missiles Systems Center or NASA.
    Six, fiscal year funding shortfalls are causing decisions 
to be made that are adding risk and increasing cost. Funding 
shortfalls must be corrected.
    Seven, the highest probability of success is to maintain 
the current contractor team, Northrop Grumman and Raytheon, and 
the IRT recommends this action.
    Eight, due to potential for coverage gaps, NPP has become a 
critical asset, and it is recommended that this be recognized 
and incorporated in program planning.
    Nine, priorities of NOAA and DOD/Air Force are not aligned. 
DOD/Air Force stated that legacy performance is acceptable and 
that they are unwilling to provide additional funding to 
achieve above legacy capability. NOAA stated that current 
weather forecasting utilizes legacy and NASA R&D satellite 
data. Accepting legacy capabilities would be a significant step 
back. This difference in priorities must be resolved.
    Ten, the current budget is inadequate with a shortfall in 
excess of $1 billion. Funding the program by fiscal year and 
through completion to 80 percent confidence, including a 
management reserve of approximately 25 percent, is required to 
have an executable program budgeted at the most likely cost.
    The IRT recognizes that NPOESS is a national program with 
quality of life, economic, disaster planning, and national 
security implications. While the IRT believes the cited 
recommendations must be implemented, additional actions are 
necessary to have a successful NPOESS program.
    The critical issue is the lack of alignment of DOD/Air 
Force and NOAA priorities. The IRT believes that the EXCOM will 
be unable to resolve this difference, and the White House will 
be required to define the NPOESS program that is in the 
national interest.
    Following the NPOESS program decision, the responsibility 
for program implementation must be assigned to one 
organization--Air Force with SMC having implementation 
responsibility or NOAA with NASA having implementation 
responsibility. Either can do the job.
    The IRT believes that the managing organization must have 
total acquisition responsibility, be allocated all currently 
planned and programmed budget and be responsible for funding 
the defined program at an 80 percent confidence level. The IRT 
recommends that responsibility for NPOESS be assigned to NOAA 
with NASA acting as NOAA's acquisition organization. This 
recommendation is based upon the recognition that NOAA has a 
broader responsibility for weather and climate requirements 
than any other organization and is a natural advocate for this 
program.
    Under this construct NOAA/NASA will provide NPOESS data to 
DOD and Air Force and establish a process to meet future DOD 
and Air Force needs.
    The EXCOM concept should continue to assure effective 
program implementation. Implementation of the IRT 
recommendations and additional actions is urgently required. 
Risk and unnecessary cost are being realized at an unacceptable 
rate.
    Thank you very much.
    [The prepared statement of Mr. Young follows:]
                 Prepared Statement of A. Thomas Young
    Chairman Miller, Ranking Member Broun, and Members of the 
Subcommittee, I am Tom Young and I chair the NPOESS Independent Review 
Team (IRT) that was established by the NPOESS Executive Committee 
(EXCOM) to review the NPOESS program baseline and the management 
approach.
    After numerous meetings, interviews with Air Force (AF), Department 
of Defense (DOD), National Aeronautics and Space Administration (NASA), 
and National Oceanic and Atmospheric Administration (NOAA) principals, 
visits to the primary contractors Northrop Grumman and Raytheon, and 
discussions with contractor Chief Executive Officers (CEOs), the IRT 
identified ten findings and recommended corrective actions.

         1)  The current NPOESS program has an extraordinary low 
        probability of success. Implementation of the following 
        recommendations is necessary to address this finding.

         2)  Continuity of data, which each user organization 
        identifies as number one priority, is at significant risk. The 
        program is hardware poor with little protection against a 
        launch failure or early spacecraft failure. Data outages in a 
        particular orbit can be measured in years with a failure. 
        Corrective action is limited to moving C3 and C4 closer to C1 
        and C2, launching on need rather than schedule and exploiting 
        NPOESS preparatory Project (NPP) data.

         3)  NPOESS is being managed with cost as the most important 
        parameter and not mission success. This Program cost focused 
        culture needs to change to a mission success focused culture 
        and the NPOESS contract award fee criteria needs a similar 
        change in focus.

         4)  NPOESS EXCOM is ineffective. Members must have decision 
        authority. Focus of EXCOM should be top level issues and timely 
        decisions.

         5)  NPOESS Program is not part of a space acquisition 
        organization which makes program implementation extremely 
        difficult. NPOESS must be assigned to a space acquisition 
        organization such as Space and Missiles Systems Center (SMC) or 
        NASA.

         6)  Fiscal year funding shortfalls are causing decisions to be 
        made that are adding risk and increasing cost. Funding 
        shortfalls must be corrected.

         7)  The highest probability of success is to maintain the 
        current contractor team, Northrop Grumman and Raytheon and the 
        IRT recommends this action.

         8)  Due to potential for coverage gaps, NPP has become a 
        critical asset and it is recommended that this be recognized 
        and incorporated in program planning.

         9)  Priorities of NOAA and DOD/AF are not aligned. DOD/AF 
        stated that legacy performance is acceptable and that they are 
        unwilling to provide additional funding to achieve above legacy 
        capability. NOAA stated that current weather forecasting 
        utilizes legacy and NASA Research and Development (R&D) 
        satellite data. Accepting legacy capabilities would be a 
        significant step back. This difference in priorities must be 
        resolved.

        10)  The current budget is inadequate with a shortfall in 
        excess of $1 billion. Funding the program by fiscal year and 
        through completion to 80% cost confidence including a 
        management reserve of approximately 25% is required to have an 
        executable program budgeted at the most likely cost.

    The IRT recognizes that NPOESS is a national program with quality 
of life, economic, disaster planning, and national security 
implications.
    While the IRT believes the cited recommendations must be 
implemented, additional actions are necessary to have a successful 
NPOESS program.
    The critical issue is the lack of alignment of DOD/AF and NOAA 
priorities. The IRT believes that the EXCOM will be unable to resolve 
this difference and the White House will be required to define the 
NPOESS program that is in the national interest.
    Following the NPOESS program decision the responsibility for 
program implementation must be assigned to one organization, AF with 
SMC having implementation responsibility or NOAA with NASA having 
implementation responsibility. Either can do the job.
    The IRT believes that the managing organization must have total 
acquisition responsibility, be allocated all currently planned and 
programmed budget and be responsible for funding the defined program at 
an 80 percent confidence level.
    The IRT recommends that responsibility for NPOESS be assigned to 
NOAA with NASA acting as NOAA's acquisition organization. This 
recommendation is based upon recognition that NOAA has a broader 
responsibility for weather and climate requirements than any other 
organization and is a natural national advocate for this program.
    Under this construct NOAA/NASA will provide NPOESS data to DOD/AF 
and establish a process to meet future DOD/AF needs.
    The EXCOM concept should continue to assure effective program 
implementation.
    Implementation of the IRT recommendations and additional actions is 
urgently required. Risk and unnecessary cost are being realized at an 
unacceptable rate.

                     Biography for A. Thomas Young
    A. Thomas Young is the former Director of NASA's Goddard Space 
Flight Center and President and COO of Martin Marietta. He retired from 
Lockheed Martin in July, 1995. Mr. Young is involved in various 
advisory and review activities associated with the U.S. Space Program.
    He is a Director of the Goodrich Corporation and Science 
Applications International Corporation. Mr. Young is an Honorary Fellow 
of the American Institute of Aeronautics and Astronautics, a Fellow of 
the American Astronautical Society, a Fellow of the royal Astronautical 
Society and a Fellow of the International Academy of Astronautics. He 
is a member of the National Academy of Engineering and the University 
of Virginia Raven Society.
    Mr. Young began his career with NASA at the Langley Research Center 
in 1961. He was a member of the Lunar Orbiter Project Team and was 
Mission Director for Project Viking. He became Director of the 
Planetary Program at NASA Headquarters in 1976 and was appointed Deputy 
Director of the Ames Research Center in 1978. Mr. Young was Director of 
the Goddard Space Flight Center from 1979 to 1982. He joined the Martin 
Marietta Corporation in 1982 and was subsequently President of 
Baltimore Aerospace and the Electronics and Missiles Group. Mr. Young 
was President and COO of Martin Marietta from 1990 to 1995.
    As a part of his advisory and review activities, Mr. Young chaired 
a group to assess the continued involvement of U.S. Astronauts with the 
MIR Space Station. He was Chairman of an Independent Assessment of 
Mission Success for Lockheed Martin. Following the Mars 1998 failures, 
he chaired the Mars Program Independent Assessment Team. Mr. Young was 
Chairman of the International Space Station Management and Cost Task 
Force. He has been Chairman of the Task Force on Acquisition of 
National Security Space Programs. He has chaired NASA's International 
Space Station Advisory Group and Space Flight Advisory Group. Mr. Young 
is a past member of the NASA Advisory Council. He chaired the National 
Academy of Engineering Committee on Technological Literacy. Mr. Young 
is currently a member of the National Academies Space Studies Board.
    Mr. Young has received NASA's Distinguished Service Medal for his 
role in the Viking Project, the Outstanding Leadership Medal for 
contributions to the Voyager Project, Presidential Rank Awards of 
Meritorious Executive and Distinguished Executive, the Public Service 
Medal for his leadership of the Mars Program Independent Assessment 
Team, and the Distinguished Public Service Medal for his leadership of 
the International Space Station Management and Cost Task Force. Mr. 
Young received the National Reconnaissance Office Medal for leadership 
of the Task Force on the Acquisition of National Security Space 
Programs. He is the recipient of the AIAA Astronautics Award and the 
National Space Club Dr. Joseph V. Charyk Award. Mr. Young was selected 
as one of nine Outstanding Corporate Directors in 2005. He received the 
2006 Bob Hope Distinguished Citizen Award from the NDIA.
    Mr. Young earned a Bachelor of Aeronautical Engineering degree and 
a Bachelor of Mechanical Engineering degree in 1961 from the University 
of Virginia. In 1972, he received a Master's of Management degree from 
MIT which he attended as a Sloan Fellow. He also holds an honorary 
doctor of science degree from Salisbury State University.
    Mr. Young and his wife, Page, reside in Onancock, Virginia. They 
have a daughter, Blair, and a son, Carter.

    Chairman Miller. Thank you, Mr. Young. Ms. Glackin.

 STATEMENT OF MS. MARY M. GLACKIN, DEPUTY UNDER SECRETARY FOR 
    OCEANS AND ATMOSPHERE, NATIONAL OCEANIC AND ATMOSPHERIC 
       ADMINISTRATION (NOAA), U.S. DEPARTMENT OF COMMERCE

    Ms. Glackin. Chairman Miller, Dr. Broun, and distinguished 
Members and staff of the Committee, I appreciate the 
opportunity to testify about the steps NOAA has taken over the 
past year to address the ongoing challenges of this critical 
program.
    While I am a 30-year career employee of NOAA, I have only 
served in my current position for the past 18 months. During 
this short tenure, I have spent a significant portion of my 
time learning about and overseeing the complex management of 
NOAA's satellite programs, especially NPOESS.
    The challenges the program faces are substantial, and I am 
working closely with both Secretary Locke and NOAA 
Administrator Lubchenco to address the recommendations 
presented by both GAO and the Independent Review Team. Since 
NOAA's final satellite in its current series was launched 
earlier this spring, the agency is particularly focused on the 
threat further delays in this program may have on crucial 
weather and climate forecasts NOAA provides to the Nation.
    NOAA is working with its partners, DOD and NASA, to move 
quickly to resolve remaining program issues, given their 
possible consequences. I would like to highlight two actions we 
have taken over the past year on the program and then address 
the recommendations that we have just heard from my two 
colleagues here.
    One step that NOAA has taken is that we have advocated with 
our tri-agency partners last summer to install a government 
program manager at the subcontractor facility where the main 
imaging sensor, known as VIIRS, is being developed. By 
installing a government official in plant, an action typically 
taken by NASA for complex developments, it has enabled the 
program to better address the ongoing technical problems. The 
benefits are not only providing significant oversight of day-
to-day testing and quality assurance processes, but allows the 
government to anticipate and react quickly to problems.
    The second step, as highlighted by this hearing, is the 
tri-agency leadership of the EXCOM called for the high-level, 
independent review that Mr. Young just provided this committee. 
When the IRT findings were initially reported to the EXCOM, 
they made it very clear that the NPOESS program has little 
chance of success as it is currently structured. NOAA is taking 
the team's grim assessment of the program very seriously and is 
working with DOD and NASA to respond to the recommendations. 
Notably, we are actively working with the leadership of the 
White House Office of Science and Technology Policy to resolve 
the differences that exist among the agencies and implement 
actions to respond to the recommendations. We are approaching 
the responses to the findings and recommendations through three 
major areas which I will address: management of the program, 
satellite coverage and budgeting of the program.
    For management, NOAA, DOD and NASA have been developing and 
considering four possible options. Option one is to maintain 
the existing tri-agency partnership with management 
improvements and additional budget reserve. Under this option, 
the tri-agency structure would remain in place, but the budget 
and schedule would be adjusted to allow the program to continue 
to address continued technical challenges.
    Option two would establish NOAA as the national lead for 
delivering weather and climate data. Under this option, NOAA, 
with NASA as its acquisition agent, would have responsibility 
for delivering a system that provides weather and climate data 
required. DOD would continue to provide funds, and all agencies 
would still coordinate on the data needs for their user 
communities. The NPOESS program office would be transferred to 
NASA's Goddard Space Flight Facility Center in Maryland.
    Option three would be similar, but with DOD as the national 
lead for delivering this. Under this option, the NPOESS program 
office would be transferred to the Air Force Space and Missile 
Center in Los Angeles.
    Option four would result in a divergence of the NPOESS 
program into two separate agency programs: one DOD and one 
NOAA. Under this option each agency would be responsible for 
acquisition of satellites in its own priority orbit, similar to 
how NOAA and Air Force currently operate them.
    The tri-agency partners are continuing to assess and 
outline possible implementation approaches for each of these 
options.
    The second area is satellite coverage and continuity. In 
partnership with NASA and DOD, we have been considering ways to 
modify the constellation to address the risk of potential gaps. 
Possible adjustments here include modifying the undeveloped 
portions of the ground system and the one unbuilt sensor, 
reconsidering the structure of the primary spacecraft, and use 
of small satellites or commercial satellites to help make the 
program more successful.
    Regarding budget, NOAA, DOD and NASA are working to address 
the budget challenges facing the program. Continued development 
problems have consumed the program's resources and forced the 
program to make difficult trade-offs. The program will likely 
require increased budget to meet the Nation's needs or have the 
program's scope reduced to better align with available budget. 
Cost estimating is underway at this time.
    Regarding GAO recommendations, NOAA concurs with all of the 
recommendations and is implementing them.
    In conclusion, I would just like to state that it is widely 
acknowledged that satellites are very complicated and difficult 
systems to design, build and operate. However, their 
capabilities play a key role in NOAA's mission to observe and 
predict the Earth's environment and provide critical 
information used in protecting life and property. Based on the 
steps NOAA has taken in partnership with NASA and DOD, the 
program is on an initial path to resolve some of its current 
challenges. However, it is clear additional work by the 
government is required to fully resolve these issues, and the 
program intends to continue to keep this committee apprised of 
its developments as we move forward. Thank you very much.
    [The prepared statement of Ms. Glackin follows:]
                 Prepared Statement of Mary M. Glackin

Introduction

    Mr. Chairman and Members of the Subcommittee, I am Mary Glackin, 
the Deputy Under Secretary for Oceans and Atmosphere of the National 
Oceanic and Atmospheric Administration (NOAA) within the Department of 
Commerce (DOC). I appreciate the opportunity to testify about the steps 
NOAA has taken over the past year to address the ongoing challenges 
with the National Polar-orbiting Operational Environmental Satellite 
System (NPOESS).

NPOESS--A National Asset for Weather and Climate Data

    NPOESS is a tri-agency collaboration involving the NOAA, the 
National Aeronautics and Space Administration (NASA), and the 
Department of Defense (DOD). The NPOESS program is designed to deliver 
four operational satellites that will provide global weather and 
climate coverage from 2014 to 2026, along with the NPOESS Preparatory 
Project (NPP), which was originally intended as a risk reduction 
satellite for the program's advanced sensor technology, and is now 
scheduled to launch in 2011.
    The NPOESS program, a pivotal national satellite constellation 
designed to meet the Nation's weather forecasting and some key climate 
monitoring needs, is at risk. Should delivery of the NPOESS satellites 
be delayed or a catastrophic failure occur on launch or in orbit, 
NOAA's forecasting ability would be severely degraded because current 
forecast models rely heavily on NOAA and NASA's polar orbiting 
satellites that will be coming to the end of their useful lives.

        <bullet>  While NOAA's weather forecasting ability can sustain 
        gaps of less than six months by relying on older satellites, a 
        larger gap in satellite coverage would be unacceptable for 
        weather forecasting since NOAA would be unable to produce 
        useful 4 and 5 day hurricane track forecasts. Overall, weather 
        model forecast performance would degrade by approximately 10 
        percent, a regression back to the quality that existed in the 
        late 1990s.

        <bullet>  A gap in satellite coverage of any length would most 
        likely interrupt critical climate measurements that are needed 
        for the Nation to determine the cause, magnitude and direction 
        of future climate change.

    NOAA's final satellite in its Polar Operational Environmental 
Satellite (POES) series, NOAA-19, was launched in February 2009 and 
declared operational earlier this month. NOAA also operates the Air 
Force's Defense Meteorological Satellite Program (DMSP) satellites, a 
program that continues to have two satellites awaiting launch. Given 
that NOAA does not have any further polar satellites remaining to be 
launched, the agency is particularly focused on the threat further 
delays in the NPOESS program and the threat launch or early-on-orbit 
failures may have on the crucial weather and climate forecasts NOAA 
provides to the Nation.
    The NPOESS program has the potential to provide crucial information 
to our continued monitoring of the climate both nationally and 
globally. Both Secretary of Commerce Locke and NOAA Administrator 
Lubchenco have indicated their commitment to fix this program to better 
ensure the future of the Nation's weather forecasting and climate 
monitoring capability.

Steps Taken to Reduce Risk in NPOESS Program

    Since NOAA last testified about the NPOESS program last June, the 
agency has taken a series of steps to address the continued technical 
and management challenges in the program. The following section 
provides a summary of these steps in chronological order.
    Working in partnership with DOD and NASA, NOAA has begun to address 
the challenges facing the program. Given the recent completion of 
crucial independent reviews, NOAA is seeking to move quickly to resolve 
remaining program issues.

A. Government Program Manager Installed at Contractor Facility

    To address ongoing technical problems in the development of the 
Visible/Infrared Imager/Radiometer Suite (VIIRS), the main imaging 
sensor for the system, the NPOESS Executive Committee (EXCOM) agreed in 
August 2008 to have a government program manager with the expertise to 
oversee its development. Working in partnership with the existing prime 
contractor team from Northrop Grumman, as well as the subcontractor 
team from Raytheon, the senior NASA engineer and manager was installed 
on site at the Raytheon plant in El Segundo, California.
    Since the government program manager's start at the facility, she 
has assessed the development of the VIIRS sensor being developed for 
NPP as well as those to be built for NPOESS C1 and later NPOESS 
spacecraft. She is leading the continued testing of the VIIRS 
instrument with a team of government experts, providing significant 
oversight on day-to-day testing and quality assurance processes.

B. Tri-Agency Joint Assessment Team Established by NPOESS Executive 
Committee

    As a result of the continued VIIRS development difficulties in 
2008, the EXCOM chartered the Tri-Agency Joint Assessment Team (TJAT) 
last fall to address the impacts to schedule and cost that these 
ongoing development problems were causing. Consisting of senior 
officials from NOAA, NASA, DOD, and Air Force, the TJAT determined the 
following:

        <bullet>  The best solution to maintain overall program data 
        continuity is to use NPP data operationally.

                  NOAA has accelerated the development of additional 
                environmental data products so NPP is able to produce 
                all of the products that NPOESS C1 was expected to 
                produce (additional 35 data products).

        <bullet>  The program should proceed to plan to procure an 
        Advanced Very High Resolution Radiometer (AVHRR), the main 
        imaging sensor on NOAA's POES satellites, as an option if the 
        program is unable to deliver VIIRS.

                  The AVHRR does not meet the full set of VIIRS 
                operational requirements. There is also no funding 
                available currently to implement this option.

                  The VIIRS sensor is currently undergoing thermal 
                vacuum testing that will continue through August. If 
                the sensor successfully proceeds through this testing, 
                the option to procure an AVHRR will not be required.

                  The EXCOM directed the NPOESS Integrated Program 
                Office (IPO) to complete the necessary procurement 
                planning in the event VIIRS thermal vacuum testing 
                problems require the program to proceed to procure an 
                AVHRR.

C. Alternative Management Studies

    The June 2006 Acquisition Decision Memorandum directed NPOESS to 
``. . . develop the option for a viable competing management structure 
. . .'' to provide the EXCOM with a possible alternative to be 
exercised when the decision is made in FY 2010 on whether to continue 
with the same contractor team for the production of NPOESS satellites 
C3 and C4. The Alternative Management Study (AMS) was commissioned by 
the NPOESS Program Executive Officer (PEO) to assess management 
structure options.
    An AMS was conducted in 2008 and made recommendations to improve 
program and sensor development oversight, fill key government 
positions, and implement contingency planning. It did not identify a 
viable alternative to the existing satellite integrator, or prime 
contractor, on the program. Their program oversight recommendations 
were addressed by creating an NPOESS Program Executive Officer-Program 
Management Council (PEO PMC), a monthly conference of tri-agency 
officials to support decision-making on the data requirements, 
acquisition, operations, and resourcing of the NPOESS program. 
Likewise, VIIRS oversight recommendations were addressed by deploying a 
government program manager and government support team to work on-site 
at the Raytheon subcontractor facility to provide additional oversight 
on VIIRS sensor testing and development.

D. Independent Review Team

    At the request of the tri-agency leadership of the EXCOM, a high-
level Independent Review Team (IRT) composed of senior independent 
aerospace and science experts from industry, academia, and government, 
concluded a comprehensive review of the program this spring. Chaired by 
Tom Young, the recently released IRT report provides valuable findings 
and recommendations regarding the current state of the program.
    When the IRT findings were initially reported to the EXCOM, the IRT 
was clear that the NPOESS program ``cannot be successfully executed 
within the constraints of cost, schedule, performance, and with the 
current management construct.''
    NOAA is taking the team's grim assessment of the program very 
seriously and is working with DOD and NASA to respond to the 
recommendations and make the changes necessary to improve the 
management and technical oversight of the program. Since Tom Young is 
expected to testify in his role as IRT Chairman at this hearing, this 
testimony will not summarize each of the team's findings and 
recommendations.
    NOAA, in partnership with DOD and NASA, is approaching the response 
to the IRT findings and recommendations through three major areas:

        <bullet>  the management of the program,

        <bullet>  the satellite coverage and data continuity challenges 
        in the program, and

        <bullet>  the budgeting of the program.

    The IRT noted they believe some NPOESS issues ``can only be 
resolved at the White House level,'' given the interactions they had 
with government officials that indicate the agencies have differences 
in how they propose to address key challenges in the program. The 
Office of Science and Technology Policy has begun to engage the tri-
agency leadership to resolve the differences and implement actions to 
respond to the IRT's recommendations.

Management: NOAA, DOD, and NASA are working to address the management 
        challenges in the program through a consideration of all of the 
        IRT's recommendations, but particularly the following four (out 
        of nine):

        <bullet>  Focus on mission success (not on cost);

        <bullet>  Fix the Executive Committee/oversight structure;

        <bullet>  Assign the development management responsibility of 
        NPOESS to a space acquisition enter; and

        <bullet>  Resolve and establish clear program priorities.

    NOAA, DOD and NASA have been developing and considering management 
alternatives to reformulate the NPOESS tri-agency relationship in 
response to IRT recommendations. The options being considered include:

        a.  Maintain the existing tri-agency partnership with 
        management improvements and additional budget reserve.

                <bullet>  Under this option, the current tri-agency 
                program structure would remain in place, but the budget 
                and schedule would be adjusted to allow the program to 
                address continued technical challenges.

                <bullet>  Under this option, the NPOESS program office 
                could be transferred to NASA's Goddard Space Flight 
                Center in Greenbelt, Maryland or Air Force's Space and 
                Missile Systems Center in Los Angeles, California, to 
                enable it to use the resources of one of these renowned 
                space acquisition centers.

        b.  Establish NOAA-NASA as national lead for delivering a 
        satellite system that provides weather and climate data.

                <bullet>  Under this option, NOAA, in coordination with 
                NASA as its acquisition lead, would have responsibility 
                for delivering a system that fulfills the NPOESS 
                requirements.

                <bullet>  NOAA and NASA would be responsible for 
                designing and implementing an improved system to reduce 
                risk of weather and climate data gaps.

                <bullet>  DOD would continue to provide funds at a to-
                be-determined level, and all agencies would still 
                coordinate on the data requirements for each agency's 
                user communities.

                <bullet>  The NPOESS program office would be 
                transferred to NASA's Goddard Space Flight Center in 
                Greenbelt, Maryland, to enable it to use the resources 
                of this renowned space acquisition center.

        c.  Establish DOD as national lead for delivering a satellite 
        system that provides weather and climate data.

                <bullet>  Similar to the previous option, DOD would 
                have responsibility for delivering a system that 
                fulfills the NPOESS requirements.

                <bullet>  The DOD would be responsible for designing 
                and implementing a system to reduce risk of weather and 
                climate data gaps.

                <bullet>  NOAA would continue to provide funds, and all 
                agencies would still coordinate on the data 
                requirements for each agency's user communities.

                <bullet>  The NPOESS program office would be 
                transferred to Air Force's Space and Missile Systems 
                Center in Los Angeles, California, to enable it to use 
                the resources of this renowned space acquisition 
                center.

        d.  Divergence of the NPOESS program into two separate agency 
        programs (one DOD, one NOAA)

                <bullet>  Under this option, each agency would be 
                responsible for acquisition of assets supporting its 
                mission in its own priority orbits, similar to how the 
                NOAA POES and Air Force DMSP programs currently 
                operate.

                <bullet>  Data sharing between the agencies would 
                continue as it does today.

                <bullet>  Existing partnerships for satellite 
                operations, data distribution, and launch service would 
                be continued.

                <bullet>  While dependent on when such a structural 
                change would occur, this option would require NOAA, 
                DOD, and NASA to negotiate which agencies would receive 
                the assets that have already been developed by the 
                NPOESS program.

                <bullet>  New competitive procurements for individual 
                NOAA and DOD systems may be required shortly after such 
                a divergence decision is made, potentially in FY 2010 
                or FY 2011 if decision is made in the near-term.

    The NPOESS tri-agency partners are continuing to assess and develop 
cost estimates for these options.

Satellite Coverage and Data Continuity:
    NOAA, DOD, and NASA are working to address the challenges of 
satellite coverage and data continuity in the program through 
consideration of all of the IRT's recommendations, but particularly the 
following four (out of nine):

        <bullet>  Proactively manage and mitigate the potential gap in 
        continuity of coverage,

        <bullet>  Continue and strengthen the relationship with 
        Northrop Grumman and Raytheon;

        <bullet>  Use NPOESS Preparatory Project data operationally; 
        and

        <bullet>  Resolve and establish clear program priorities.

    NOAA, NASA, and DOD have been considering ways to modify and adjust 
the current planned NPOESS constellation of satellites to better 
mitigate potential gaps in coverage as well as better address each 
NPOESS agency's need for environmental data. The agencies are examining 
initially the following areas to adjust the constellation to help make 
the program more successful:

        <bullet>  Alternatives for the currently undeveloped portions 
        of the ground system;

        <bullet>  Alternative sources for the currently undeveloped 
        Microwave Imager/Sounder (MIS) sensor;

        <bullet>  Alternatives for the structure of the primary 
        spacecraft; and

        <bullet>  Use of a series of small satellites and inclusion of 
        sensors on commercial spacecraft, both of which may improve the 
        tri-agency's ability to recover from launch or on-orbit 
        failures.

    Some of these options would require modifications to contracts and 
additional resources. Some of the options may reduce the capability of 
the NPOESS system.

Budget:
    NOAA, DOD, and NASA are working to address the budget challenges 
facing this program through consideration of all of the IRT's 
recommendations, but particularly the following three (out of nine):

        <bullet>  Proactively manage and mitigate the potential gap in 
        continuity of coverage;

        <bullet>  Increase near-term funding; and

        <bullet>  Fund the program by fiscal year and through the 
        duration of the program at an 80 percent cost confidence level, 
        including a management reserve of 25 percent.

    Continuing development problems have consumed the program's 
resources and forced the program to make difficult trades to preserve 
schedule and remain within available annual funding. Unfortunately, 
these trades have added substantial risk to the program. In the near-
term, the program will likely require increased budget to meet the 
Nation's needs, or have to reduce program scope to better align the 
program with its available budget.
    In response to this concern, NOAA allocated $26 million of American 
Recovery and Reinvestment Act funding for NPOESS, including funding 
above its matching requirement with DOD. This additional funding will 
allow NOAA to perform critical NPOESS development activities and 
address risk mitigation within the program.
    Based on the four above major steps the NPOESS program leadership 
has taken recently, the program is on an initial path to resolve some 
of its current challenges. Additional work by the government is 
required to resolve the issues and the program intends to continue to 
keep the Committee apprised of these developments.

Government Accountability Office Recommendations for Executive Action

    The Government Accountability Office (GAO) has provided regular 
reviews of the NPOESS program and NOAA appreciates the perspective GAO 
professionals have provided. NOAA has met with GAO and provided 
information and feedback on its most recent report.
    GAO made six recommendations that it anticipates will improve the 
effectiveness and efficiency of the EXCOM. The first recommendation was 
directed solely to DOD and the remaining five recommendations are 
directed to DOC/NOAA, DOD, and NASA.

Recommendation 1: To improve the timeliness and effectiveness of 
acquisition decision making on the NPOESS program, we recommend that 
the Secretary of Defense direct the Under Secretary of Defense for 
Acquisition, Technology, and Logistics to attend and participate in 
NPOESS Executive Committee meetings.

NOAA Response: NOAA defers to the DOD on this recommendation but has no 
objection to EXCOM participation by the Under Secretary of Defense for 
Acquisition, Technology and Logistics.

Recommendation 2: Establish a realistic timeframe for revising the 
program's cost and schedule baselines.

NOAA Response: NOAA concurs with this recommendation. The NPOESS 
Integrated Program Office is developing an updated program office 
estimate for a revised acquisition program baseline as required by DOD 
acquisition regulation. However, a revised program cost and schedule 
estimate will be established later this year following a robust 
independent cost analysis of recommended programmatic and acquisition 
alternatives that better reflect a budget with appropriate contingency 
funding to reduce risk. The revised program cost and schedule estimates 
will be ready for initial EXCOM review in late summer 2009.

Recommendation 3: Develop plans to mitigate the risk of gaps in 
satellite continuity.

NOAA Response: NOAA concurs with this recommendation. The NPP sensors 
are capable of producing data that meet or exceed the data provided by 
NOAA-19 (NOAA's current operational satellite). Accordingly, to 
mitigate the potential gap in polar environmental satellite data 
coverage in the afternoon orbit between NOAA-19 and NPOESS C1, NOAA 
plans to make operational use of the data from the NPP spacecraft and 
increase the number of products NOAA had planned to generate from the 
NPP system as a risk reduction mission to minimize impacts to NOAA's 
National Weather Service and other users.
    Specifically, NOAA will accelerate development of 54 polar legacy 
products. Previously, 19 legacy products were expected from NPP, with 
an increase to 54 products in the NPOESS C1 era. NOAA will enhance its 
NPP data processing ground system with sufficient infrastructure to 
support the additional 35 products and 24x7 operations and support.
    In the mid-morning orbit, NOAA will continue through the next 
decade to process and deliver environmental products to its customers 
from the U.S. and European instruments on board the European 
Organization for the Exploitation of Meteorological Satellites MetOp 
series of satellites.
    NOAA is assessing the use of additional international and 
interagency assets as well as potential development of spare satellites 
and instruments. The cost and schedule details associated with these 
contingency options are currently under review. Any alternative 
decisions will also take into account the results of the VIIRS sensor 
testing currently underway.

Recommendation 4: Track the Committee's action items from inception to 
closure.

NOAA Response: NOAA concurs with this recommendation. NOAA will task 
the NPOESS Program Executive Officer (PEO) to ensure that Executive 
Committee (EXCOM) action items are clearly and completely defined, 
assigned to responsible parties for completion within a specific 
timeframe, and tracked to completion, including reporting the results 
to the EXCOM. NOAA will monitor EXCOM action items through the NOAA 
Program Management Council, which I chair, and take corrective actions 
needed to ensure action item coordination and closure.

Recommendation 5: Improve the Committee's ability to achieve successful 
outcomes by identifying the desired outcome associated with each of the 
Committee actions, as well as timeframes and responsible parties, when 
new action items are established.

NOAA Response: NOAA concurs with this recommendation. NOAA will task 
the PEO to ensure EXCOM action items and desired outcomes are clearly 
and completely defined, assigned to responsible parties for completion 
within a specific timeframe, and tracked to completion, including 
reporting the results to the EXCOM. NOAA will monitor EXCOM action 
items through the NOAA Program Management Council, which I chair, and 
take corrective actions needed to ensure successful outcomes.

Recommendation 6: Improve the Committee's efficiency by establishing 
timeframes for escalating risks to the committee for action so that 
they do not linger unresolved at the program executive level.

NOAA Response: NOAA concurs with this recommendation. The PEO will 
ensure that risks, resolution plans and schedules are established and 
tracked at the PEO-PMC, the PEO's monthly management council. NOAA will 
work with NASA and DOD to ensure the PEO establishes clear criteria and 
timeframes for elevating risks to the EXCOM for action. NOAA will 
monitor PEO action items and issue resolution through the NOAA Program 
Management Council and the tri-agency NPOESS Oversight Council (NOC) to 
take corrective actions needed to ensure timeliness in addressing 
escalating risks.
    The NOC, established in the spring of 2009, is the tri-agency 
council that reviews the NPOESS program on a more recurrent basis than 
the senior-level EXCOM. The NOC, which reports to the EXCOM, is co-
chaired by the Deputy Under Secretary for Oceans and Atmosphere, the 
Deputy Under Secretary of the Air Force, and the Deputy Administrator 
of NASA. These members are responsible for representing their agencies 
and providing a reasonable representation of their EXCOM position to 
ensure that issues and actions are responded to in a timely manner.

Conclusion

    In conclusion, NOAA appreciates the Committee's continued interest 
in the success of the agency's satellite programs. It is widely 
acknowledged that satellites are very complicated and difficult systems 
to design, build, and operate. However, their capabilities play a key 
role in NOAA's mission to observe and predict the Earth's environment 
and to provide critical information used in protecting life and 
property. NOAA is acting quickly to support the important decisions 
that are likely required to modify the program to more effectively 
achieve its objectives in line with the recommendations of key 
independent reviewers. DOC and NOAA remain committed to pursuing a 
program that will provide continuity of data for the Nation's weather 
and climate prediction needs. I would be happy to answer any questions 
you may have.

                     Biography for Mary M. Glackin
    Mary M. Glackin has been the Deputy Under Secretary for Oceans and 
Atmosphere since December 2, 2007. In this role she is responsible for 
the day-to-day management of NOAA's domestic and international 
operations.
    Glackin has more than 15 years of senior executive level experience 
working in numerous NOAA line offices. She served as the acting 
Assistant Administrator for Weather Services and Director, National 
Weather Service from June 12, 2007, through September 15, 2007. Before 
that, she was the Assistant Administrator for the National Oceanic and 
Atmospheric Administration's (NOAA) Office of Program Planning and 
Integration. From 1999 until 2002, she served as the Deputy Assistant 
Administrator for the National Environmental Satellite, Data, and 
Information Service of NOAA. From 1993 to 1999, she worked as the 
Program Manager for the Advanced Weather Interactive Processing System 
(AWIPS) with the National Weather Service (NWS), NOAA. Prior to this, 
Ms. Glackin was both a meteorologist and computer specialist in various 
positions within NOAA where she was responsible for introducing 
improvements into NWS operations by capitalizing on new technology 
systems and scientific models.
    She is the recipient of the Presidential Rank Award (2001), Charles 
Brooks Award for Outstanding Services to the American Meteorological 
Society, the NOAA Bronze Medal (2001), the Federal 100 Information 
Technology Manager Award (1999), the NOAA Administrator's Award (1993), 
and the Department of Commerce Silver Medal Award (1991). She is a 
Fellow of the American Meteorological Society and a member of the 
National Weather Association and the American Geophysical Union.
    Ms. Glackin has a B.S. degree from the University of Maryland.

                               Discussion

    Chairman Miller. It sounds like there will be six more 
oversight hearings on the NPOESS satellite system.

                    Ensuring Interagency Cooperation

    I now recognize myself for five minutes of questioning. Mr. 
Powner, your report, as well as Mr. Young's testimony, 
attributed much of the failure to the inability of the three 
agencies, NOAA, DOD, NASA, the tri-agency executive committee, 
or EXCOM, to function properly for the different agencies 
simply to play well with others. Your recommendation that in 
the future they should develop their own satellites because 
they just couldn't get along seemed like an extraordinary step 
when there appear to be some significant savings or something 
that should be available if they all need satellites flying to 
cooperate.
    We have got new players on the scene. We have got Dr. 
Lubchenco at NOAA, Dr. Carter at DOD, Mr. Scolese if I have 
pronounced it correctly, at NASA in the EXCOM positions. Do you 
have access to their report cards from elementary school? Do 
you know how well they play with others? Do you think there is 
any chance that EXCOM can be made to work as intended with 
different people in the seats?
    Mr. Powner. I think clearly in the short-term the delivery 
of the four satellites as well as the demonstration satellite 
with NPOESS, we need to keep the current structure or go to 
something similar to what Mr. Young is suggesting with one 
agency lead. You know, we are about ready to deliver on the 
demonstration satellite hopefully and then also with the first 
satellite, C1. The recommendation long-term to split it, I 
think if you look historically, this was intended to save 
money. It hasn't saved money. We still haven't resolved the 
differing agency missions. I think after these four satellites 
are delivered, we ought to consider going back to separate 
satellite acquisitions. In the interim, our recommendations are 
geared toward getting the EXCOM on board. They still have a 
management role here to deliver the satellites that are 
currently on the table.
    Chairman Miller. Mr. Young, do you agree? Is there 
something that is just in the system of having these three 
agencies try to work together? Is it a personality issue? Is 
there any possibility now that we have got different people 
sitting in the seats at the EXCOM meetings that we will have 
better results, it will be less dysfunctional?
    Mr. Young. I don't think it is a personality issue. I think 
it really boils down to a couple of factors. One is the 
priorities of the partners are different, and it is hard to 
have an integrated management team when the various partners 
have different priorities. But I will come back and say, you 
know, as I mentioned in my testimony, I think even in the 
revised program that IRT suggested, EXCOM has a role. But it is 
almost kind of fundamental that the three parties be the people 
who have decision-making authority, you know. As was pointed 
out in the GAO report, the DOD representative is not the 
individual decision-making authority. So fundamentally this is 
an organization that meets some weeks. Afterwards there is some 
meeting which I am not totally familiar with where the 
decision-making authority, the individual who has milestone and 
acquisition authority, makes decisions.
    So I think there are ways to make it more efficient, but it 
is hard to overcome the factor that the three organizations 
have in our view different priorities. And by the way, I want 
to come back and say it doesn't mean any of the priorities are 
wrong. I mean, it is just that they are different.

                            The Role of OSTP

    Chairman Miller. Mr. Young, your testimony embraced the 
idea that the White House should--ultimately they are all three 
executive branch agencies. Perhaps OSTP should come in and 
decide between the priorities. That seems like kind of a big 
task for a small office. But am I correct? Is that what you 
think needs to happen? OSTP needs to come in and decide, 
adjudicate the disputes?
    Mr. Young. Yes, and let me add to that just a little bit. 
It again is our observation or judgment that the EXCOM cannot 
come to resolution on the issue for the reasons we have talked 
about. So then as you said, it really has to go to another 
level. When we really got looking at this, that was kind of 
beyond where we had expected to go, to tell you the truth. But 
when we started looking at this particular program, it becomes 
very odd--this is a national program for all the reasons that 
you folks identified. It is not a program that should be 
subject to compromise. It is a program that should be decided 
on what is in the best interest of the country. And the right 
place for that to be done is the White House. So in our view, 
the Office of the President has to designate a decision-maker, 
underline decision-maker, not a committee chairman, not a 
coordinator, but a decision-maker. And that decision maker has 
to listen to all of the inputs and decide one, what is 
affordable, and two, what is in the best interest of the 
country. I think it can be done. We didn't identify who that 
should be. It certainly could be the Director of the Office of 
Science and Technology and Policy. It could be Director of the 
NSC, but I think it is probably in those two organizations that 
you would find the right expertise to provide this leadership.
    But again, if you will excuse me, I want to underline, we 
don't need another Committee Chairman and we don't need another 
Coordinator. We need someone who is going to listen to all the 
facts and decide what is in the best interest of the country.
    Chairman Miller. My time is now expired. Both cloakrooms 
have now told us that there will likely be votes shortly. We 
will try to go and make a decision about whether we will come 
back or not depending on how far we have gone. I think all the 
Members should know that if they remain Members of this 
committee, they will have many opportunities to ask questions 
at NPOESS oversight hearings.
    Dr. Broun for five minutes.

                    Selecting a Management Strategy

    Mr. Broun. Thank you, Mr. Chairman. Secretary Glackin, NOAA 
has recommended four different paths toward the resolution as 
we go forward in the NPOESS management. Do you all have a 
preference of one over the other? Would you make that clear to 
us, please?
    Ms. Glackin. Yes, I will. I will speak from a NOAA 
perspective here. NOAA believes that we have the broadest 
mission requirements for this, for both weather and climate, 
and we also recognize that this is a critically important 
program to us. It is really germane to our mission, and NOAA 
would be prepared to take leadership in this program, I think 
as we move forward with it. There are quite a few--I would 
hasten to say there are quite a few issues associated with 
things that have to be worked out, and we are really in the 
midst of doing that. But Secretary Locke has been actively 
engaged in this program and is committed to finding the right 
solution for the Nation. And if it is going to be right for the 
Nation, then I think he would be prepared.
    Mr. Broun. Okay. Would you rank those four options for us 
in terms of effectiveness, difficulty in implementing each 
option, and the likelihood of it being implemented?
    Ms. Glackin. All of the options have, I think, pros and 
cons to them that are still being evaluated at this point. I 
think the status quo does represent some significant challenges 
for us as Mr. Young has highlighted for us today. Options two 
and three, I think, have a significant pro to them in that 
there would be a very clear point for authority, accountability 
and responsibility for a program there. To go to option two 
would obviously be a transition to get there. Option three 
would be easier.
    In option four which I described as a divergence, I will 
take another minute to say that there really is still a lot of 
commonality in that site. We have a ground system today, and 
the Committee may not be aware but NOAA actually operates DOD's 
operational satellites for them today. So NOAA has a very 
strong role in operations of these satellites.
    Mr. Broun. Mr. Young, would you please comment on those 
four options and any other option that you see of the four, as 
well as rank them in order of effectiveness and implementation?
    Mr. Young. Let me give just a little bit of background. You 
are probably familiar, but our particular group, we had a 
fairly broad representation. It was nine of us, but if there 
was any waiting, it was in the direction of people who had 
national security space experience. I really highlight that 
because it was a group that I think was genuinely looking for 
what is in the best interest of the country, not what is the 
best organizational solution.
    We debated a fair amount on that subject, and our 
conclusion is a little bit as Ms. Glackin said, that NOAA is 
really the organization that the country looks to to provide 
weather and climate leadership, and when you're assigning 
responsibility for something, I think you want to assign it to 
that organization where it is their number one priority, not 
their number seven priority. And in that regard, it is number 
one priority to NOAA. It was very obvious to us that NOAA was 
the organization.
    NOAA is not a space acquisition organization, so they need 
NASA to be a partner with them in order to be able to implement 
it.
    Mr. Broun. So you basically agree with----
    Mr. Young. I do.
    Mr. Broun.--Secretary Glackin. Mr. Powner, would you 
comment, please?
    Mr. Powner. Well, I think in the near-term we have the 
existing structure to deal with. So that needs to go forward 
over the next several months. Hopefully we will have a quick 
decision if we go with the one agency. I agree that NOAA would 
be that agency, because this is not a priority at DOD.
    The fourth option is clearly a longer-term approach after 
this constellation of NPOESS satellites would be launched.
    Mr. Broun. Okay, Mr. Chairman. For the sake of time, I am 
going to yield back.
    Chairman Miller. Thank you for that very generous decision.
    What I would propose is that each of the remaining 
Members--we have been called for votes. You heard the bells or 
the horns--that each of the Members ask one round of questions 
if they can keep it below five minutes, maybe more like three-
ish. We can complete this sixth hearing on NPOESS and save our 
questions for the seventh or eighth hearing.
    Ms. Dahlkemper for five or less.

                              Program Cost

    Ms. Dahlkemper. Thank you, Mr. Chairman. I will try to be 
brief. Mr. Powner, it seems that every time that you have come 
before this committee, you are reporting cost increases in this 
program. Yet the entire Nunn-McCurdy process was supposed to 
stabilize the program.
    Why haven't we converged on a stable cost estimate for the 
program before this, and can you give me a firm number now?
    Mr. Powner. Well, I think if you look at the history of 
this program, the current overrun is primarily due to the 
technical problems that the program has faced with the VIIRS 
sensor. I think there were unforeseen technical problems. You 
can argue that maybe those technical problems could have--we 
should have anticipated those. So in the past, we can go back 
to--there has been mismanagement across the board on this. We 
are faulting EXCOM right now. Historically, you can go back. 
There was a prime contractor not overseeing subs, there were 
problems with program offices. So there has been mismanagement 
throughout, not a single organization that we can point to say, 
that is the one organization. It has been from contractors 
through program offices, through PEOs through EXCOM. Everyone 
is at fault.
    I think if you look going forward, the estimate right now 
of $3.9 billion, it is going to at least grow another billion 
but likely more because there also will be integration issues 
which typically occur on both NPP and that first satellite. So 
I would expect at a minimum it will be $1 billion but likely 
more. So that will place this in the $15 billion life cycle 
cost range.
    Ms. Dahlkemper. So I am sorry, what was the total?
    Mr. Powner. $15 billion.
    Ms. Dahlkemper. And can you say that that is a stable 
number?
    Mr. Powner. No, it will be higher than that.
    Ms. Dahlkemper. So there is still no firm number?
    Mr. Powner. And I think the program would agree with that, 
too. That is why they want to have these detailed cost 
estimates that they are going to work on. There are five 
estimates that are currently in the works right now. We haven't 
seen those. Those have not been disclosed to us. It is going to 
at least be fifteen.
    Ms. Dahlkemper. Mr. Young and Ms. Glackin, would you please 
comment on my question?
    Mr. Young. I really can't add to the cost numbers. In our 
report, the thing that we were really trying--we said greater 
than a billion dollars. What we were really trying to do is 
make sure that everybody understood this wasn't a fixer-up 
problem. I mean, it was a problem of a significant magnitude. I 
don't know what the upper cap, you know, is on that particular 
number. But it is in excess of a billion dollars.
    Ms. Dahlkemper. Ms. Glackin.
    Ms. Glackin. I agree with that.
    Ms. Dahlkemper. Well, it certainly would be nice to have a 
stable number. I am new to Congress, so I haven't been here for 
all these other hearings, and I guess I will be here for quite 
a few after this.
    Mr. Broun. You hope you are.
    Ms. Dahlkemper. What is that?
    Mr. Broun. You hope you are.
    Ms. Dahlkemper. Yeah, I hope I am. But I mean, I hope I am 
not. I hope that we can put this problem behind us, you know, 
just as a concerned citizen who came into Congress. These are 
the kind of things that, you know, just make people back home 
shake their heads and wonder what we are doing down here.
    Mr. Young. I probably should, if I could add to that, I 
agree. My personal belief is, it is not necessary to have a 
seventh hearing.
    Ms. Dahlkemper. We should be able to do this if we get a 
decision maker in?
    Mr. Young. The right leadership and the right corrective 
actions can prevent a seventh hearing.
    Ms. Dahlkemper. Thank you very much. I will yield back.
    Chairman Miller. The record should note that most of these 
hearings do predate Ms. Dahlkemper's service in Congress.
    Mr. Bilbray for five minutes or such lesser time as he may 
consume.

                 Coordinating Agencies and Technologies

    Mr. Bilbray. Yes, Mr. Chairman, just as an editorial note, 
it is nice to hear about a problem that is only a billion.
    Chairman Miller. No, it is more than that.
    Mr. Bilbray. That was with a B, not with a T, right? Okay. 
Are we talking the biggest problem is incompatibility of 
hardware between the three different choices? Is that a debate 
over the hardware itself?
    Mr. Young. I don't think so. I think it really--if I could 
kind again hit the point I was trying to make in my testimony. 
The DOD/Air Force states that they are satisfied with legacy, 
meaning current weather satellite data. They are satisfied with 
that capability.
    Mr. Bilbray. Who is?
    Mr. Young. The DOD and the Air Force.
    Mr. Bilbray. Okay.
    Mr. Young. And they are not willing to provide funding to 
provide capability beyond that. Now, it has been kind of 
directed that the two organizations fund 50-50. Now, NOAA and 
Ms. Glackin can say this much better than I, but NOAA states 
that today they use all their weather satellites, including 
theirs and DOD's. But they also use some very special 
capability from NASA R&D satellites that are operating well 
beyond their designed lifetime. And it is the combination of 
those data that gives us the quality of weather forecasting we 
have today. To go to legacy capability only would be a 
significant step back in the country's ability to do weather 
forecasting. That difference in opinion is big, and when we 
would sit in the meetings with the two organizations, good 
people on both sides, but you could just sense the edge that 
that created because each was trying to be supportive of their 
respective organization's priorities, not surprising. Given 
that large difference, and it is large, difference in 
priorities makes any kind of an integrated implementation for 
this program--I guess I could say difficult but I probably 
should use even a stronger statement than that.
    Mr. Bilbray. Well, let me say, for instance, if somebody 
has been in government for over 30 years, I mean, any 
bureaucracy that is satisfied obviously doesn't know what it 
doesn't know. I mean, I think that seriously we need to talk 
about that. And this whole in-fighting kind of reminds me of 
trying to get 18 police agencies to agree on one communication 
system----
    Mr. Young. That would be right.
    Mr. Bilbray.--and everybody has got their angle to it. And 
I understand the in-fighting here.
    My biggest concern is people thinking they don't have a 
vested interest in the other guy's agenda. I don't think that 
there are very many people in business who thought the military 
doing Internet was going to be a big deal to them, and frankly, 
I think there is a whole lot of technology exchange. I don't 
think any of us know in the long run the benefits that may 
happen through cooperation.
    And so, Mr. Chairman, I just think that we have got to 
approach this not just over the issues of what is the 
forecasting that the three agencies want to look at or data 
they want to acquire or the program they want. But the fact of 
understanding that there are things out there that if we are 
going to get a benefit and get problems in that we don't know 
about and to approach that.
    I mean, how many people in business really saw the 
Eisenhower Act, which originally was designed for the military. 
That really was a boon for interstate commerce. So I just hope 
that we approach this with the attitude that there is a lot 
more at stake than just, you know, forecasting the weather we 
know now, and it just boggles my mind to think that maybe the 
institutions that think they have enough data really aren't 
aware of just how broad horizons are. I guess it goes back to 
the old thing at the turn of the century when they said we 
might as well shut down the patents office because everything 
that has ever been invented has already been invented.
    So I yield back, Mr. Chairman.

                  The Keys to Avoiding Future Problems

    Chairman Miller. Thank you, Mr. Bilbray. Mr. Davis has made 
our life slightly easier by going to vote and forgoing his 
round of questions. Without making this another round of 
questions, we do have just a minute or two more. Mr. Young said 
he did not think we needed a seventh hearing, or an eighth or a 
ninth or a tenth hearing, that there were things that we could 
do to avoid that necessity, that need. Could each of you give 
one sentence that you think is the most important thing to be 
done to avoid the need for a seventh, eighth, ninth hearing and 
further delays and further cost overruns and further everything 
that has gone wrong. Mr. Powner.
    Mr. Powner. There is an EXCOM meeting June 26. We need a 
firm decision on program direction which includes scope and 
cost; and if we don't have that decision, I think we do need a 
hearing.
    Chairman Miller. Does someone need to call the Secretary of 
Defense and suggest someone show up? Mr. Young.
    Mr. Young. The White House needs to establish the program 
is in the best interest of the country, and then we need to 
budget for it at the most probable cost which is an 80/20 
confidence with a sufficient amount of contingency.
    Chairman Miller. Ms. Glackin.
    Ms. Glackin. I think that we need to make adjustments to 
the program with respect to management, to have the management 
oversight be more effective, and we need to develop realistic 
cost and schedules for this program that we can live within.

                                Closing

    Chairman Miller. All right. Any valedictory comments from 
Dr. Broun?
    Mr. Broun. I just want to thank Mr. Powner and Mr. Young 
for their hard work on this. Hopefully we won't need another 
hearing, hopefully we will get good management in place and we 
can start flying birds and get the data that Ms. Glackin and 
her agency needs and that this will be a soft problem, and I 
just want to thank you all very much. I have tremendous respect 
for Mr. Young. I knew him years ago when I was the physician 
for the Martin Marietta plant in Americus, Georgia. And so I 
have known him for a number of years, and I just have 
tremendous confidence in what he recommends. And I thank both 
of you gentlemen, and I thank you Madam Secretary for coming. 
Thank you.
    Mr. Young. Thank you very much.
    Chairman Miller. All right. Now we need to sprint to the 
Floor, but thank you again. We will bring this hearing to a 
close. I thank all the witnesses for testifying. Under the 
rules, the record will remain open for two weeks for additional 
statements from the Members and for answers to any follow-up 
questions the Committee may have for the witnesses. The 
witnesses are excused. The hearing is now adjourned.
    [Whereupon, at 2:54 p.m., the Subcommittee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by David A. Powner, Director, Information Technology 
        Management Issues, Government Accountability Office (GAO)

Questions submitted by Representative Paul C. Broun

Q1.  There are many different cost estimates for the NPOESS program.

Q1a.  What do you know about them?

A1a. Currently, there are at least five different cost estimates for 
the NPOESS program. One estimate is the program's current official cost 
estimate of $13.95 billion, which is recognized as no longer being 
achievable. Agency officials have provided us an overview of the other 
four estimates, but not the estimates themselves since they were still 
being determined at the time of our review. All of them are based on a 
delayed schedule.\1\ The estimates, as explained by agency officials, 
are:
---------------------------------------------------------------------------
    \1\ This schedule delays the launches of the NPOESS prototype--
called the NPOESS Preparatory Project (NPP)--and the first and the 
second NPOESS satellites by seven, fourteen, and five months, 
respectively.

        <bullet>  Program officials' cost estimate at the 50 percent 
        confidence level.\2\
---------------------------------------------------------------------------
    \2\ A 50 percent level of confidence indicates that a program has a 
50 percent chance that the program will be delivered at the identified 
cost.

        <bullet>  The Office of the Secretary of Defense's Cost 
        Analysis Improvement Group's independent cost assessment at the 
---------------------------------------------------------------------------
        50 percent confidence level.

        <bullet>  Program officials' cost estimate at the 80 percent 
        confidence level.

        <bullet>  Program officials' estimate that includes the cost of 
        acquiring the third and fourth NPOESS satellites as early as 
        possible (as recommended by a recent Independent Review Team 
        report).

Q1b.  Which [cost estimate] do you think the program should use moving 
forward?

A1b. The recent Independent Review Team (IRT) report recommends funding 
the NPOESS program at the 80 percent confidence level and including a 
management reserve for the program of approximately 25 percent. We 
agree that, at this stage of the program, the cost estimate should be 
at the 80 percent confidence level. Using an estimate with a higher 
confidence level and management reserve should help the program plan 
for and handle unanticipated issues as it moves from the development 
phase to the production phase.

Q2.  One of the findings of the IRT was that the Integrated Program 
Office (IPO) does not have sufficient space acquisition expertise, and 
they cited the Goddard Space Flight Center at NASA and the Air Force 
Space and Missile Systems Center as good examples.

Q2a.  Why can't the current IPO leverage the expertise of these 
institutions without actually being co-located?

A2a. The program office currently leverages the expertise of these 
institutions without being co-located. However, key agency officials 
reported that co-location could provide a supportive infrastructure, 
facilitate cooperation, and allow active oversight by the selected 
center's management.

Q2b.  Does the IPO consult with these organizations already?

A2b. Officials from both Goddard Space Flight Center and Air Force 
Space and Missile Systems Center are members of, and participate in, 
the Program Executive Officer's Program Management Council. In 
addition, many of the program's and the program executive office's 
employees are originally from either NASA or the Air Force, and both 
the program and the program executive office work with NASA and the Air 
Force to get specific expertise as needed.

Q2c.  Is there an overhead cost associated with NASA running NOAA 
programs?

A2c. There is an overhead cost associated with NASA running NOAA 
programs. For example, on the Geostationary Operational Environmental 
Satellites-R series (GOES-R) program, NOAA reimburses NASA for its 
program office support such as facilities management and information 
technology support services, which is calculated by NASA via a general 
management overhead cost rate.

Q3.  The NPOESS Preparatory Project (NPP) mission was meant to mitigate 
program risk and test sensors and ground systems prior to the full 
stand-up of NPOESS. I understand that we don't have many options now 
because of concerns about data gaps, but what are the implications of 
``operationalizing'' NPP?

A3. There are several implications of using NPP data operationally. 
First, the four central data processing centers (one managed by NOAA, 
one by the Air Force, and two by the Navy) will need to ensure that the 
infrastructure they had planned to build to handle NPOESS data are in 
place and that the scientific algorithms are ready to accept NPP data. 
Because neither Navy facility will have an NPOESS Integrated Data 
Processing System until the first NPOESS satellite is operational, they 
may also need to make additional accommodations to use NPP data 
effectively. Second, there are fewer operational ground stations 
supporting NPP than will support NPOESS, which means that data will 
take longer to get to the centers and, therefore, may be less useful. 
Third, the NPP satellite was only designed to a five-year mission life, 
unlike the seven-year mission life of the NPOESS satellites. Thus, if 
there are further delays in the launch of C1, NPP may not bridge the 
gap in satellite data.

Q4.  NOAA is responsible for program management and operation, while 
acquisition authority belongs to DOD.

Q4a.  How has this affected the program?

A4a. As outlined in a tri-agency memorandum of understanding, NOAA, 
DOD, and NASA each have different responsibilities for the NPOESS 
program and all are represented on a tri-agency Executive Committee. 
However, we recently reported that it is difficult for the NPOESS 
Executive Committee to navigate the three agencies' competing 
requirements and priorities.\3\ We also reported that the Executive 
Committee has not been effective in fulfilling its responsibilities 
because the official with the authority to make acquisition decisions 
did not attend committee meetings, corrective actions were not 
identified in terms of desired outcomes, actions were not tracked to 
closure, and selected risks were not escalated in a timely manner.
---------------------------------------------------------------------------
    \3\ GAO, Polar-orbiting Environmental Satellites: With Costs 
Increasing and Data Continuity at Risk, Improvements Needed in Tri-
agency Decision Making, GAO-09-564 (Washington, D.C.: June 17, 2009).

---------------------------------------------------------------------------
Q4b.  Is this relationship unique in the Federal Government?

A4b. The 2008 NPOESS Alternative Management Study team found that the 
NPOESS tri-agency management approach has no prior model on which to 
rely. Other similar programs, including NOAA's GOES program and Air 
Force programs, use management approaches that have been in place for 
decades. The team noted that the success of these other programs 
appears to be attributable, in part, to the maturity of the government 
management approach.

Q5.  Given all of the technical issues experienced on the Visual/
infrared Imager Radiometer Suite (VIIRS) instrument, is it time to 
pursue an alternative instrument?

A5. While the VIIRS instrument has had many serious technical issues, 
the recent Independent Review Team recommended that the program stay 
with the current sensor and contractor teams through the third VIIRS 
sensor (for NPOESS C2). However, if problems on VIIRS persist during 
its current thermal vacuum testing, the program plans to pursue an 
alternative to ensure that launch schedules do not slip any further. 
The Executive Committee has directed NASA to start the documentation 
that will be needed to procure an Advanced Very High Resolution 
Radiometer (AVHRR) for C1 at the beginning of the next fiscal year 
(October 1, 2009)--should VIIRS performance during thermal vacuum 
testing dictate such a need. Agency officials have noted that a 
decision would need to be made by that time in order to avoid further 
schedule delays.

Q5a.  Is using an AVHRR the only option [for C1]?

A5a. The agencies' options depend on their goals, such as whether 
schedule or cost is more important than system performance. 
Specifically, an AVHRR is cheaper and easier to build than VIIRS, and 
is NOAA's current operational imaging sensor. However, it offers a 
major step back from NASA's Moderate Resolution Imaging 
Spectroradiometer (MODIS) sensor, which NOAA and NASA both consider 
their ``legacy'' sensor--and both agencies use MODIS data 
operationally.
    As of March 2009, over 80 percent of the parts for the second VIIRS 
instrument (currently planned for C1) were in house at the contractor, 
with plans in place to acquire the rest. Further, an independent review 
team chaired by officials from NASA's Jet Propulsion Laboratory 
recently reviewed the contractor's ability to build the second and 
third VIIRS instruments. The team recommended staying with the current 
VIIRS contractor for C1 and C2.

Q5b.  When would the [Executive Committee] need to make this decision 
by?

A5b. The Executive Committee has directed NASA to start the procurement 
paperwork for an AVHRR for C1 at the beginning of the next fiscal year 
(October 1, 2009)--should VIIRS performance during its on-going thermal 
vacuum testing dictate such a need. A decision would need to be made by 
that time in order to avoid further schedule delays to the C1 launch.

Q5c.  What are the cost and performance implications of making this 
decision?

A5c. Although building an additional AVHRR appears to be the least 
costly of the options for replacing VIRRS on C1--should that be 
required--the AVHRR sensor would be a significant step back in terms of 
performance currently available through NASA's MODIS sensor. Further, 
AVHRR would not meet the key performance parameters required for the 
NPOESS program.

Q5d.  Are there any international implications to this option since we 
owe an AVHRR to the Europeans for their MetOp satellite?

A5d. The current direction of the Executive Committee is to plan for 
the purchase of an AVHRR for C1 (in the afternoon orbit)--not for NPP--
beginning October 1, 2009, if needed. In that event, the program plans 
to acquire a new AVHRR for C1--not the AVHRR intended for MetOp. 
However, there are agreements in place between the European 
Organization for the Exploitation of Meteorological Satellites 
(Eumetsat) and NOAA regarding the exchange of NPOESS data. These should 
be examined before deciding how to proceed regarding an AVHRR.
    In responding to these questions, we relied on information from our 
recent review of the NPOESS program.\4\ The work supporting the report 
was conducted from October 2008 to June 2009 in accordance with 
generally accepted government auditing standards. Those standards 
require that we plan and perform the audit to obtain sufficient, 
appropriate evidence to provide a reasonable basis for our findings and 
conclusions based on our audit objectives. We believe that the evidence 
obtained provides a reasonable basis for our findings and conclusions 
based on our audit objectives. Additional details on our objectives, 
scope, and methodology are provided in our report.\5\
---------------------------------------------------------------------------
    \4\ GAO-09-772T and GAO-09-564.
    \5\ GAO-09-564.
---------------------------------------------------------------------------
                   Answers to Post-Hearing Questions
Responses by A. Thomas Young, Chair, NPOESS Independent Review Team 
        (IRT)

Questions submitted by Representative Paul C. Broun

Q1.  Your review found critical flaws in the way the three agencies 
interact.

Q1a.  If you were advising the Office of Science and Technology Policy 
on how to proceed, what would you suggest?

A1a. Establish a sound program. A program that responds to all 
requirements and corrective actions needs to be established for NPOESS. 
This program should provide the capabilities necessary to meet Level 1 
requirements and include all of the IRT recommendations regarding 
management structure and data continuity. The resultant funding and 
schedule for this program should be adjusted to support an 80/20 cost 
confidence in each fiscal year and for the total program. The 
affordability of the resultant program and the associated funding 
should be assessed.
    If the resultant program and level of funding are judged to be 
unaffordable, then the scope of the program should be adjusted such 
that the reduced program scope can be accommodated within the level of 
the available funding at an 80/20 cost confidence level in each fiscal 
year and for the total program. The acceptability of this reduced-scope 
program should be assessed.
    The IRT believes that, in addition to defining the NPOESS program 
that meets national interests, responsibility for the program's 
execution must be assigned to one organization (USAF or NOAA). Should 
the selected NPOESS program option have requirements consistent with 
current Level 1 requirements, the logical choice would be the 
organization needing the improved capabilities above legacy, i.e., 
NOAA. If the decision is to constrain the program to be consistent with 
legacy performance and the associated budget, either NOAH or the USAF 
could be assigned the responsibility.
    The organization assigned management responsibility must have total 
acquisition authority including control and responsibility for all 
supporting resources and functions such as people, budget, and 
contracting. Additionally, that organization should be allocated all 
currently planned and programmed NPOESS budget and then be responsible 
for funding the NPOESS program at an 80-20 cost confidence level.
    At the March 4, 2009 EXCOM briefing of the IRT findings and 
recommendations regarding NPOESS, the EXCOM requested that the IRT 
evaluate the organizational alternatives for the acquisition of NPOESS. 
The conclusion of this evaluation is that either organization has the 
capability to execute the NPOESS program. However, the IRT recommends 
that responsibility for NPOESS execution be assigned to NOAA with NASA 
acting as NOAA's acquisition organization. This recommendation is based 
on the following two factors: 1) NOAA has the broader responsibility 
for weather and climate than any other organization; and 2) this 
national responsibility of NOAA aligns well with the national character 
of the NPOESS program and makes NOAA the natural national advocate for 
the NPOESS program.
    Under this construct, NPOESS execution is assigned to NOAA with 
NASA as NOAA's acquisition organization, NOAA/NASA will provide all 
polar data from the NPOESS program to all users. Additionally, NOAA/
NASA, working with DOD, must establish a process that will ensure that 
future DOD needs will be satisfied. The current EXCOM concept should 
continue as an interagency forum to assure effective program 
implementation.

Q2.  How much more do you think this program will cost if it is 
budgeted to 80/20?

A2. The program is currently funded at less than the 50/50 level which 
is an insufficient level of funding. At this level of funding the 
program lacks sufficient management reserve which leads to the program 
using risk as its management reserve. The most probable cost is at the 
80/20 level including reserves. To fund at the most probable cost, the 
IRT estimated that the NPOESS budget has a shortfall in excess of $113 
through program completion. Funding the program (by Fiscal Year and 
through Estimate to Complete) to 80/20 cost confidence would provide a 
management reserve of approximately 25 percent.

Q2a.  Does this include your recommendation to mitigate the risk of 
continuity gaps?

A2a. No, it does not. The IRT review of the baseline program 
highlighted a concern regarding operational continuity associated with 
how the baseline program was structured. Both heritage programs, the 
DOD's Defense Meteorological Satellite Program (DMSP) and the NOAA 
Polar-orbiting Operational Environmental Satellite (POES) were planned 
and constructed with spares on the ground to implement a ``launch on 
need'' philosophy. Even early NPOESS planning carried this same launch 
philosophy to preclude long gaps in coverage. The current NPOESS 
program plan does not have that same level of assuredness regarding 
operational continuity. Furthermore, the IRT was unable to find Level 1 
requirements for operational continuity or constellation availability.
    If all satellites are delivered on schedule, launched without 
incident, and meet their full design life, there will be no significant 
gap in capabilities. In keeping with historical trends, there is a high 
likelihood of early problems with the first few satellites. They occur 
across the manufacturing, integration and test, and on-orbit 
performance phases. If NPOESS exhibits these characteristics, there 
will be a minimum gap of several months. If there is a launch failure--
a 41 percent chance of occurring over the remaining DMSP launches, NPP 
and NPOESS there is a high likelihood of a gap measured in years (note: 
41 percent based on the Success Probability used in the Aerospace GAP 
analysis). If there is a launch failure or an early spacecraft failure 
on NPP, C1 or C2, there will be a capability gap of three to five 
years. The NPOESS Preparatory Project (NPP)--once a key risk reduction 
activity for NPOESS--is now a critical asset to help mitigate these 
potential gaps in operational coverage.
    The IRT recommended that steps be taken to proactively manage and 
mitigate the potential gap in continuity coverage. The EXCOM must 
clarify the program priorities and determine if continuity of coverage 
is a priority. If it is a priority, it should be clearly captured as a 
Level 1 requirement. Spare satellites should also be programmed for 
launch/early-orbit failure. Ideally, the spacecraft should be available 
and tested to a common point for either orbit, with payloads available 
for either orbit configuration. Move production and launch dates of C3 
and C4 closer to C1 and C2. To bolster this fragile constellation, an 
integrated management approach is needed for the remaining DMSP, POES, 
METOP and NPOESS, including NPP. Modify the launch philosophy of all 
polar-orbiting environmental assets to launch on need (or launch on 
failure). Use the NPOESS Preparatory Project (NPP) data, originally 
intended for risk reduction, as an option to mitigate potential data 
gaps. This will help but will not compensate for lack of spares in case 
of launch or early spacecraft failures.
    Information regarding the cost impacts of implementing these 
actions was not available when the IRT conducted its review.

Q2b.  If the cost is budgeted to an 80/20, what should the program 
office cut in order to keep the program from undergoing another Nunn-
McCurdy review?

A2b. If the program is budgeted to a cost confidence level of 80/20 
this will provide approximately 25 percent management reserve. If this 
is done and the other IRT recommendations (e.g., placing priority on 
and incentivizing mission success) are implemented, the program has a 
very good chance of not undergoing another Nunn-McCurdy review.

Q3.  One of the findings of your team was that the Integrated Program 
Office (IPO) does not have sufficient space acquisition expertise, and 
you cited the Goddard Space Flight Center at NASA and the Air Force 
Space and Missile Systems Center as good examples.

Q3a.  Why can't the current IPO leverage the expertise of these 
institutions without actually being co-located?

A3a. Co-location is a secondary implementation issue. The key to the 
proper implementation of this IRT recommendation is the nature of the 
association of the program with the space acquisition center and the 
center to the agency/department responsible for the execution of the 
program. The arrangement should be one that holds,the center 
responsible for the successful acquisition of the program and the 
program responsible to the center for the same. However, while co-
location is not essential, it certainly can make the benefits of a 
space acquisition center for the successful execution of the program 
easier to achieve. Not only can the program more effectively draw on 
the knowledgeable resources of the center but the status reporting from 
the program to the center and the management oversight of the program 
by seasoned senior space acquisition personnel can be more 
comprehensive, timely, and effective.

Q3b.  Does the IPO consult with these organizations already?

A3b. Consultation or communications does not meet the requirement. 
Effective support and oversight of the program by a space acquisition 
center requires the center to have responsibility for the success of 
the program and be able to employ its support and oversight expertise, 
resources, and processes to that end.

Q3c.  Is there an overhead cost associated with NASA running NOAA 
programs?

A3c. Certainly. NASA, as the space system acquisition organization for 
NOAA, would bring the expertise and experience that NOAA does not have 
that is required for successful execution of these space system 
programs. NASA would be responsible to NOAA for the successful 
achievement of the space system acquisition objectives. To accomplish 
this, NASA would provide implementation as well as support and 
oversight resources for the programs.

Q4.  You recommended keeping the current contractor team because they 
represent the highest probability of success at this point.

Q4a.  How can the Federal Government continue with the current 
contractors without creating a ``moral hazard'' by seeming to allow 
poor performance?

A4a. Contractors should be held accountable for poor performance for 
which they are responsible. With respect to NPOESS, it could be argued 
that the incentive structure that placed priority on cost over mission 
success, the lack of sufficient funding which lead to the adoption of 
risk to resolve issues, the lack of space acquisition expertise, and 
the lack of effective oversight and decision-making have been principal 
causes for the poor results so far. Again from a mission success 
perspective, the continued use of the contractor team that is familiar 
with the program and the issues is more likely to achieve successful 
execution, assuming the other issues are resolved, than spending the 
time and money to change contractor teams and then bring the new team 
up to the level of knowledge the incumbent team already possesses.

Q5.  Your team believes NPOESS will ultimately end up costing at least 
another $1 billion.

Q5a.  Is this additional cost simply a result of budgeting to 80/20?

A5a. Yes, this is the result of funding the current program to the 80/
20 cost confidence level.

Q5b.  Where is this additional cost coming from?

A5b. The program is currently funded at less than the 50/50 level which 
is an insufficient level of funding. At this level of funding the 
program lacks sufficient management reserve which leads to the program 
using risk as its management reserve. The most probable cost is at the 
80/20 level including reserves. Funding the program (by Fiscal Year and 
through Estimate to Complete) to 80/20 cost confidence would provide a 
management reserve of approximately 25 percent.

Q6.  The NPOESS Preparatory Project (NPP) mission was meant to mitigate 
program risk and test sensors and ground systems prior to the full 
stand-up of NPOESS.

Q6a.  I understand that we don't have many options now because of 
concerns about data-gaps, but what are the implications of 
``operationalizing'' NPP?

A6a. Rather than utilizing NPP and its data in a one-time or short-term 
proof-of-concept or risk reduction approach, NPP data would be used 
over the duration of the mission to address selected operational polar 
data requirements. This might require additional processing and 
dissemination capabilities for the NPP data.

Q7.  NOAA is responsible for program management and operations, while 
acquisition authority belongs to DOD.

Q7a.  How has this affected the program?

A7a. A multi-agency organization is typically more complex and less 
efficient than an organization contained within one agency. NPOESS, a 
tri-agency program, is no different than many multi-agency 
organizations, and not surprisingly has a few built-in challenges:

        1.  The NPOESS budget is funded 50 percent by the DOD and 50 
        percent by the DOC. This split funding requires significantly 
        increased effort and overhead in coordination. As an example, 
        to receive funding, the NPOESS budget is reviewed by six 
        Congressional committees. Once received, NPOESS must also use 
        two financial systems to execute the budget.

        2.  Requirements are also managed through another multi-agency 
        construct called the Senior Users Advisory Group (SUAG).

        3.  By the Memorandum of Agreement (Dec. 2008), the acquisition 
        reporting runs from the NPOESS PEO to the EXCOM, of which the 
        DOD EXCOM representative is also the Milestone Decision 
        Authority (MDA).

    The EXCOM is intended to be a decision body to provide streamlined 
direction to the PEO. As currently run, however, the EXCOM is not a 
decision-making body, and major program decisions can only be finalized 
(sometimes weeks) after the EXCOM. The current DOD EXCOM representative 
has not been delegated the proper authority from the Defense 
Acquisition Executive (who is also the NPOESS Milestone Decision 
Authority) and decisions require an additional meeting and coordination 
to be finalized. Additionally, the IRT has observed that many of the 
topics that are discussed at the EXCOM delve too deeply into program 
details and many critical top level issues are left unresolved.
    For an EXCOM process to be effective, the EXCOM members must be the 
decision makers or have the appropriate authorities delegated to them. 
When they meet, the EXCOM should focus on strategic issues and 
decisions-such as on program priorities, risk to data continuity, or 
the inadequate budget - not on tactical day-to-day program development 
status.

Q7b.  Is this relationship unique in the Federal Government?

A7b. Not aware of any other tri-agency arrangements similar to NPOESS. 
However, having one agency do acquisition for another is common. In the 
space systems arena, the National Reconnaissance Office has been 
acquiring space systems that were part of larger NSA and NGA systems 
and programs for decades.

Q8.  Given all of the technical issues experienced on the VIIRS 
instrument, is it time to pursue an alternative instrument?

        a.  Is using the AVHRR the only option?

        b.  When would the EXCOM need to make this decision by?

        c.  What are the cost and performance implications of making 
        this decision?

        d.  Are there any international implications to this option 
        since we owe an AVHRR to the Europeans for the MetOp satellite?

A8. With a VIIRS Engineering Design Unit (EDU) already through 
environmental testing, the recent successful completion of vibration 
testing for VIIRS F1, and the planned completion of VIIRS F1 thermal 
vacuum testing scheduled for the summer of 2009, there is growing 
confidence that a VIIRS F1 can be delivered. With the maturity and 
progress already invested in VIIRS, it is unlikely that a ``new'' 
instrument start would be any more cost effective or bring the schedule 
in any closer. Another new instrument start will only siphon more money 
away from an already budget-strapped program.
    In addition, there are no apparent, viable, near-term alternatives 
for VIIRS. The one remaining legacy sensor--the last Advanced Very High 
Resolution Radiometer (AVHRR)--is slated for EUMETSAT via an 
international agreement and will be used for METOP that supports the 
mid-morning orbit. Re-opening the production lines for legacy sensors 
such as the Operational Linescan System (OLS) and the AVHRR would not 
save much, if any, money, nor would they be delivered any earlier or at 
lower risk. These legacy sensors would also constitute a significant 
step back in performance compared to VIIRS. In fact, while perhaps an 
OLS-like performance would be suitable for some DOD requirements, the 
AVHRR does not meet the requirements for NOAA and NASA. Other options, 
such as starting an alternative VIIRS concept will also contain 
significant cost and schedule impacts.
    However, while not optimal, the IPO should continue to protect 
AVHRR as an option until VIIRS completes Thermal Vacuum testing. Since 
there are only minimal costs to develop and submit the paperwork to 
potentially acquire an AVHRR (e.g., a Justification for Other than Full 
and Open Competition and/or a Justification and Approval), the IRT 
recommends the continuation of this no/low-cost effort until the VIIRS 
thermal vacuum data is available in the summer of 2009. If the data is 
favorable, this AVHRR option can be stopped.
                   Answers to Post-Hearing Questions
Responses by Mary M. Glackin, Deputy Under Secretary for Oceans and 
        Atmosphere, National Oceanic and Atmospheric Administration 
        (NOAA), U.S. Department of Commerce

Questions submitted by Representative Paul C. Broun

Q1.  We understand that there are several alternative cost estimates 
under consideration.

Q1a.  What are they?

A1a. The National Polar-orbiting Operational Environmental Satellite 
System (NPOESS) Integrated Program Office (IPO) submitted a 
notification letter to the Defense Acquisition Executive indicating 
that the schedule of the current Acquisition Program Baseline (APB) was 
unachievable. As part of that notification process, the IPO is required 
by Department of Defense (DOD) acquisition regulations to submit a 
revised APB with an updated schedule and cost estimate. Prior to 
submitting the revised APB for DOD approval, the NPOESS Executive 
Committee (EXCOM) requires an independent assessment of the schedule 
and cost estimate.
    There will be only one schedule and cost estimate submitted for 
consideration; however, it will be subjected to two different 
independent reviews. One review is being conducted by the Office of the 
Secretary of Defense Cost Analysis Improvement Group (CAIG), using DOD 
methodology. The other review is being conducted by NASA and NOAA, 
consistent with past assessment practices for collaborative satellite 
procurements. Both of the independent assessments are proceeding and a 
revised program cost and schedule estimate will be ready for review by 
the EXCOM in fall 2009.

Q1b.  Why is it taking so long to figure out what this program will 
cost to complete?

A1b. The NPOESS Program has many variables that make cost estimating 
challenging. It is somewhat premature to determine whether the 
technical difficulties with the two primary instrument development 
programs--the Visible/Infrared Imager/Radiometer Suite (VIIRS) and 
Cross-track Infrared Sounder (CrIS)--have been overcome and whether the 
positive impact of ``lessons learned'' in the development of the NPOESS 
Preparatory Project can be incorporated into the next instruments to be 
developed for the first and second NPOESS satellites (C1 and C2, 
respectively). The EXCOM has directed a special detailed assessment 
called a ``deep dive'' in order to develop shared agreement on the 
magnitude of the program's challenges.
    Once the technical challenges are fully identified, a revised 
program schedule must be developed before the revised program cost 
estimates are completed. As the agencies analyze schedule and cost, 
they must reconcile the differences in their standards and approaches, 
adding to the time required to complete an accurate cost estimate.
    DOD and NOAA have fundamentally different approaches to cost 
estimating, which are difficult to reconcile. The White House Task 
Force led by the Office of Science and Technology Policy (OSTP) has a 
working group focused on determining the best cost methodology for this 
program.

Q1c.  Is it true that going with the most conservative estimate, using 
80 percent confidence level, you would trigger another Nunn-McCurdy 
breach?

A1c. NOAA's current estimate for an 80 percent cost confidence NPOESS 
profile for FY 2012 and beyond would result in a cost growth of 15.6 
percent above the 2006 Nunn-McCurdy certified program budget. A 15.6 
percent cost growth would require a notification to Congress, but not a 
complete re-certification similar to the one performed in 2006. A 
recertification is required if cost growth exceeds 25 percent.

Q2.  In your opinion, why has the Executive Committee (EXCOM) failed to 
effectively oversee the NPOESS Program?

A2. The answer is multifaceted. First, tri-agency management of any 
program is inherently difficult. Second, the EXCOM should be utilized 
for strategic direction related to the high-level needs and 
requirements of the program and establishment of key budget baselines, 
not for tactical day-to-day program oversight. The current structure 
requires these very high level managers to provide both, which results 
in both functions being weakened. It is also essential for the EXCOM to 
have critical strategic issues presented at an appropriate level by 
program staff to facilitate decision-making. Finally, NOAA, DOD, and 
NASA agree with and have taken action on the Government Accountability 
Office (GAO) finding that the EXCOM lacks the membership and leadership 
needed to effectively and efficiently oversee and direct the program. 
For the past three months, the DOD committee member with acquisition 
authority has been attending Executive Committee meetings. NOAA also 
agrees with GAO that the EXCOM failed to track action items to closure 
and that many of the EXCOM decisions did not achieve desired outcomes. 
The White House Task Force that is examining the NPOESS program is 
considering these types of issues, with the goal of ensuring the most 
effective possible management structure as we move forward.

Q3.  Because of the continued delays to the NPOESS Program, we have 
reached the point where weather and climate data continuity could be at 
risk if NPP or NPOESS fail on launch or orbit. What is NOAA prepared to 
do to ensure weather and climate data continuity?

A3. NOAA's Polar-orbiting Operational Environmental Satellites (POES), 
both the operational on-orbit and recently launched satellites, are 
performing well and there is no immediate risk to data continuity for 
NOAA's weather and climate missions. NOAA is concerned about the 
fragility of the constellation and the risk to data continuity once the 
last operational NOAA POES and NASA Earth Observing Satellites (EOS) 
missions reach the end of their expected life time by 2013.
    For the afternoon orbit, which is most at-risk, NOAA plans to 
maximize use of existing NOAA POES satellite assets, use NPP data 
operationally, leverage data from other NASA and DOD environmental 
satellites, and forge partnerships with international space agencies to 
acquire data needed to support NOAA's operational weather and climate 
missions.
    In the mid-morning orbit, NOAA will continue processing and 
delivering environmental products for its customers from the U.S. and 
European instruments on board the European Organisation for the 
Exploitation of Meteorological Satellites (EUMETSAT) MetOp series of 
satellites through the next decade.

Q4.  How does NOAA plan to ensure that all three agencies individual 
priorities are weighed and needs are met?

A4. The NPOESS Executive Committee (EXCOM) was structured to be the key 
decision-maker on the strategic direction of the program. Though both 
the Government Accountability Office (GAO) and NPOESS Independent 
Review Team (IRT) have noted the EXCOM has not been focused enough on 
strategic issues, NOAA, together with DOD and NASA, and more broadly, 
the White House Task Force, are working to ensure the program gets 
restructured in a way that ensures the requirements of each agency's 
mission will be met.
    Coordinating with the EXCOM development and sustainment of the 
program's key data needs and priorities is the NPOESS Tri-agency Joint 
Agency Requirements Council, along with its subordinate Senior User 
Advisory Group and Joint Agency Requirements Group. These tri-agency 
entities are responsible for developing and sustaining the Integrated 
Operational Requirements Document (IORD), which details the data and 
information priorities for the program. NOAA is engaged in these 
working groups to ensure that all NPOESS requirements are accounted for 
and traceable to each agency and its customers. The White House Task 
Force led by OSTP is examining NPOESS in its requirements working 
group.

Q5.  The CERES instrument which measures Earth's radiance budget is 
being put back on NPP and NPOESS.

Q5a.  Does this instrument need a water vapor sensor on orbit to help 
calibrate it?

A5a. No. CERES does not need a water vapor sensor on-orbit for 
calibration purposes. The CERES instrument is calibrated using water 
vapor data from an existing meteorological model which uses data from 
multiple sources (sounders, microwave radiances, etc.). Use of this 
model eliminates the need to use an additional satellite instrument for 
calibration.

Q5b.  MODIS has a water vapor sensor, but VIIRS does not. Are we adding 
an instrument back to NPP and NPOESS that perhaps may not work 
correctly when the MODIS mission ends?

A5b. No. Water vapor data is being provided by an existing 
meteorological model which uses data from multiple sources (sounders, 
microwave radiances, etc.) to meet mission requirements, so it is not a 
requirement for VIIRS.

Q5c.  Is this truly an issue, what is NOAA doing to mitigate this risk?

A5c. This is not an issue for NOAA with the use of the existing 
meteorological model.

Q6.  One of the findings of your team was that the Integrated Program 
Office (IPO) does not have sufficient space acquisition expertise, and 
you cited the Goddard Space Flight Center at NASA and the Air Force 
Space and Missile Systems Center as good examples.

Q6a.  Why can't the current IPO leverage the expertise of these 
institutions without actually being co-located?

A6a. It may be possible to better leverage the expertise of the space 
acquisition centers without being co-located. A White House Task Force 
led by the Office of Science and Technology Policy (OSTP), with the 
participation of NOAA, NASA, and DOD, is examining ways to strengthen 
program management, including strengthening the program's access to the 
expertise at the space acquisition centers.
    The IPO currently takes advantage of selected technical resources 
from NASA Goddard Space Flight Center (GSFC) and the Air Force Space 
and Missile Systems Center (SMC). However, having greater access to the 
expertise and personnel at a space acquisition center like GSFC or SMC 
could improve day-to-day management and oversight by providing a more 
complete infrastructure of technical and program staff, policies and 
procedures, and checks and balances at all levels of management. For 
example, a space acquisition center has access to an extensive 
infrastructure of engineering and mission assurance experts who can be 
available on demand to support timely mission support. In addition to 
timely technical support, this infrastructure provides expert oversight 
of technical and management activities to ensure that staff is trained 
and providing the highest level of performance.
    Acquisition centers have a system of independent reviews they 
perform on all programs throughout the course of their acquisition that 
ensure they are remaining on track technically. Subjecting NPOESS to 
such a system could be optimal for the program given its ongoing 
technical challenges, especially on sensors, which have not been 
noticed early enough in many cases by the program's current prime 
contractor and tri-agency management structure. Such a set of customary 
independent reviews would provide higher-level management, especially 
the EXCOM, an ongoing stream of management information allowing them to 
focus on the results and actions required, rather than needing to plan 
and repeatedly call for future independent tests.

Q6b.  Does the IPO consult with these organizations already?

A6b. The IPO consults with these agencies today as referenced in 
response 6a above.

Q6c.  Is there an overhead cost associated with NASA running NOAA 
programs?

A6c. If the decision is made by the Executive Office of the President 
that NASA would be the acquisition authority for the program, NASA 
would not run the NPOESS program, but could act as NOAA's or DOD's 
acquisition agent. There would be associated overhead costs for NASA 
support as there currently is for DOD acquisition support. NASA's 
overhead costs associated with individual programs are clearly 
identified and tracked in the cost accounts for the program. This 
practice is called ``full cost accounting'' and it provides 
transparency for all costs associated with a program.

Q7.  The NPOESS Preparatory Project (NPP) mission was meant to mitigate 
program risk and test sensors and ground systems prior to the full 
stand-up of NPOESS.

Q7a.  I understand that we don't have many options now because of 
concerns about data-gaps, but what are the implications of 
``operationalizing'' NPP?

A7a. In order to use the NPOESS Preparatory Project (NPP) data 
operationally, NOAA needs to accelerate the installation of an NPOESS 
Data Exploitation ground system, which includes critical hardware 
improvements that will allow the NPP data to be used for operational 
weather forecasting and climate monitoring. No NPP spacecraft design 
changes are required to implement this.
    The benefit of operationalizing NPP will be an expansion in the 
number of operational environmental products (from 19 to 54) since the 
instruments on NPP are capable of producing data that meet or exceed 
the data provided by NOAA-19, our current operational afternoon polar-
orbiting satellite. The availability of these products will provide 
additional data that will benefit NOAA's weather forecasts and warnings 
as well as its climate assessments.

Q8.  NOAA is responsible for program management and operation, while 
acquisition authority belongs to DOD.

Q8a.  How has this affected the program?

A8a. The tri-agency management structure adds complexity to an already 
complex space system acquisition. Since guidance and direction to the 
program must be coordinated between senior leaders within each agency, 
program management is inherently more cumbersome and protracted in 
comparison to major programs being managed within a single agency.
    The White House Task Force led by OSTP is looking at ways to 
improve the program management.

Q8b.  Is this relationship unique in the federal government?

A8b. NOAA and NASA have a history of collaboration in the development 
of satellite systems since the 1960s. While tri-agency programs are not 
unique, NOAA is not aware of a tri-agency management structure 
involving a program as large or as complex as NPOESS.

Q9.  Given all of the technical issues experienced on the VIIRS 
instrument, is it time to pursue an alternative instrument?

A9. VIIRS has satisfactorily progressed through ambient, 
electromagnetic interference vibration testing. VIIRS has completed the 
thermal vacuum testing process, though continued analysis of the 
results is ongoing. Given that substantial risks also exist if a new 
option must be developed in place of VIIRS, both the tri-agency 
technical team and independent reviews recommended staying the course 
with VIIRS.
    The EXCOM did, however, direct the IPO to develop a plan to procure 
an additional Advanced Very High Resolution Radiometer (AVHRR) 
instrument as a contingency option should VIIRS experience additional 
problems that would drive cost and schedule to even more unacceptable 
levels. Given that the instrument has progressed through thermal vacuum 
testing, it is less likely an AVHRR will need to be procured.

Q9a.  Is using an AVHRR the only option?

A9a. :After studying several options, a tri-agency technical team 
concluded that planning for an additional AVHRR in case it was needed 
was the best option. Given the status of current testing on VIIRS, it 
is less likely an AVHRR will need to be procured.

Q9b.  When would the EXCOM need to make this decision by?

A9b. A decision to procure an additional AVHRR instrument will be made 
in fall 2009 following the completion of VIIRS thermal vacuum testing 
and analysis of its results.

Q9c.  What are the cost and performance implications of making this 
decision?

A9c. The cost of procuring a single AVHRR instrument compatible with 
the NPOESS C1 spacecraft is estimated to be $60 million. However, AVHRR 
performance falls short of VIIRS capabilities in important areas 
including cloud detection, aerosol monitoring, as well as land, ice and 
snow products that are routinely used in numerical weather prediction 
models. With only AVHRR, rather than a more advanced imaging sensor, 
weather models could not be improved as rapidly as planned to enhance 
environmental predictions.

Q9d.  Are there any international implications to this option since we 
owe an AVHRR to the Europeans for the MetOp satellite?

A9d. No. The procurement plan for an additional AVHRR instrument allows 
for NOAA to meet its delivery commitments to EUMETSAT.
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
